<html>
<title> - [H.A.S.C. No. 113-127] THE ADMINISTRATION'S STRATEGY AND MILITARY CAMPAIGN AGAINST ISLAMIC STATE IN IRAQ AND THE LEVANT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                                
 
                         [H.A.S.C. No. 113-127]

                   THE ADMINISTRATION'S STRATEGY AND
                   MILITARY CAMPAIGN AGAINST ISLAMIC
                      STATE IN IRAQ AND THE LEVANT

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 13, 2014


   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  



                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

91-812 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, November 13, 2014, The Administration's Strategy and 
  Military Campaign Against Islamic State in Iraq and the Levant.     1

Appendix:

Thursday, November 13, 2014......................................    47
                              ----------                              

                      THURSDAY, NOVEMBER 13, 2014
  THE ADMINISTRATION'S STRATEGY AND MILITARY CAMPAIGN AGAINST ISLAMIC 
                      STATE IN IRAQ AND THE LEVANT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2

                               WITNESSES

Dempsey, GEN Martin E., Chairman, Joint Chiefs of Staff, U.S. 
  Department of Defense..........................................     9
Hagel, Hon. Chuck, Secretary of Defense, U.S. Department of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Hagel, Hon. Chuck............................................    53
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Jones....................................................    61
    Ms. Speier...................................................    61

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................    68
    Ms. Duckworth................................................    69
    Mr. Langevin.................................................    65
    Mr. Shuster..................................................    67
    
    
    
    
    
    
    
               THE ADMINISTRATION'S STRATEGY AND MILITARY

               CAMPAIGN AGAINST ISLAMIC STATE IN IRAQ AND

                               THE LEVANT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, November 13, 2014.
    The committee met, pursuant to call, at 10:10 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen. Before we begin, I 
would like to state up front that I will not tolerate 
disturbances of these proceedings, including verbal 
disruptions, photography, standing, or holding signs. I want to 
thank you at the outset for your cooperation.
    We have a hard stop at 1 p.m. today because of a House 
organizational meeting. Therefore, after consultation with Mr. 
Smith, I ask unanimous consent that each member shall not have 
more than 4 minutes, rather than the usual 5, to question the 
panel of witnesses so that we can get to as many members as 
possible. Thank you.
    The committee meets to receive testimony on the 
administration's military campaign and strategy for Syria and 
Iraq. I would like to welcome Secretary Hagel and General 
Dempsey. We appreciate you being here to address these very 
consequential issues.
    When we last saw you in September, the Congress had just 
passed an authority to train and equip [moderate] Syrian rebels 
after a lengthy debate. The air campaign in Iraq had been 
underway for a few weeks and strikes in Syria had not yet 
begun. I stated then that I did not believe the President's 
minimalist strategy was sufficient to achieve his objectives of 
degrading and destroying ISIL [Islamic State of Iraq and the 
Levant]. This hearing is critical to our understanding of the 
progress made by the President's strategy and to hear from our 
military leaders on what else may be needed.
    The OCO [Overseas Contingency Operations] budget amendment 
that we received Monday afternoon pays for the air campaign and 
adds more advisors, but it does not appear to reflect any 
changes in strategy. However, we know that targeting and air 
strikes are getting harder as ISIL changes tactics, and 
limiting our advisors to headquarters buildings will not help 
newly trained Iraqi and Syrian opposition, their forces, to 
hold terrain, much less defeat ISIL in the field. Yet the 
President has doubled down on his policy of no boots on the 
ground despite any advice you have given him.
    So my fundamental question is, how can you successfully 
execute the mission you have been given to degrade and 
ultimately destroy ISIL when some of your best options are 
taken off the table? Mr. Secretary, both of your predecessors, 
Bob Gates and Leon Panetta, have stated that we need boots on 
the ground if there is to be any hope of success in the 
strategy. Even Coach K, a West Point graduate and very 
successful basketball coach at Duke, told an Army conference 
last month that declaring we won't use ground forces is like 
telling your opponent you are not going to play your best 
players.
    We may very well be considering a new AUMF [Authorization 
for Use of Military Force] in the future, but I would offer a 
warning that should the AUMF proposed by the President contain 
such limitations, it will be DOA [dead on arrival] in Congress. 
I will not support sending our military into harm's way with 
their arms tied behind their backs.
    Lastly, the risk to our forces increases even more with 
terrorist detainees returning to the battlefield. ISIL's 
leader, al-Baghdadi, is chief among them. There are reports of 
former GTMO [Guantanamo Bay Naval Base] detainees returning to 
the fight and recruiting militants for ISIL. Despite these 
disturbing trends, we have seen an increase in notifications 
regarding detainee transfers from GTMO.
    Mr. Secretary and General Dempsey, you shoulder an immense 
responsibility each time you sign off on or concur on these 
releases. I understand you are under pressure to release even 
more. But the roughly 150 detainees that are left are the worst 
of the worst. To continue these releases just as we have had to 
open a new front in the war on terror is unwise.
    Mr. Secretary and General Dempsey, again, thank you for 
being here today. This is likely the last hearing that we will 
have together, and all of the issues that bring us together are 
never easy. I have always appreciated your friendship and 
candid conversations, and your service, and your dedication to 
this Nation. And for those of us who will not be here in the 
114th Congress, let me express our gratitude to you for your 
leadership, your service, and above all your devotion to our 
troops.
    Ms. Sanchez.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman.
    And, gentlemen, thank you again for being before us.
    Mr. Smith could not be here this morning, and so I will be 
reading his statement if it so pleases, and I hope the 
chairman. So, again, these are not my words, because, as you 
know, Mr. Chairman, I am probably very different than a lot of 
the thought that is going on in this committee in many ways. 
But these will be Mr. Smith's words.
    He would like to thank the witnesses for appearing here 
today. Just 3 months ago, the President notified Congress that 
he had authorized the commander of Central Command to undertake 
air strikes in Iraq against ISIL.
    Just 2 short months ago, on September 23, the 
administration provided a War Powers notification of strikes in 
Syria against ISIL. And since that time, the U.S. has taken 
hundreds of strikes in Iraq and Syria, killing hundreds of ISIL 
fighters, eliminating their freedom to move in convoys, 
substantially impacting their ability to sell oil to fund their 
operations, and driving their leadership underground, which 
complicated their ability to command and control their forces.
    The DOD [Department of Defense] has deployed about 1,400 
troops to Iraq to protect the embassy and to advise and assist 
Iraqi security forces [ISF], including the Iraqi Army, 
counterterrorism services, the Kurdish Peshmerga, and the 
President has announced that another 1,500 would go. We have 
also airlifted substantial stocks of weapons and ammunition to 
ISF and to the Syrian Kurds fighting ISIL, and the 
administration has enlisted somewhere around 60 countries to 
fight against ISIL. And a number of them have undertaken 
strikes in either Iraq or Syria, and some have volunteered to 
send special forces to Iraq to help. And of course Congress 
approved a temporary authority for the DOD to begin training 
and equipping elements of the Syrian opposition to fight ISIL.
    In other words, Mr. Smith says, we have come a long way in 
a fairly short amount of time. And thank you to the two of you 
for leadership in arriving at most of what I just mentioned. 
And even though we have made substantial progress, more remains 
to be done to combat the threat of ISIL. An ISIL able to 
control territory in Iraq and Syria will, without question, 
plot and plan attacks about the West. I think we all agree, as 
we have seen what they have been doing to the people that they 
have taken, the beheadings, the executions, et cetera. I am 
paraphrasing here in order to make this short, Mr. Chairman.
    But going forward, we have many decisions to make about 
combating the threat of ISIL. The President, for example, has 
requested that Congress authorize the use of military force 
against the group rather than relying on the 2001 AUMF to 
combat Al Qaeda. I agree that Congress should debate and pass 
an AUMF, but I am skeptical that we can assemble a majority to 
do so. The President has also requested $1.6 billion to train 
the Iraqi security forces, and we in Congress need to 
reauthorize the Syrian train-and-equip authority. And, again, 
these are the words of Mr. Smith.
    I will end, and I would like unanimous consent to put the 
entire statement into, let me end with just this last 
paragraph, Mr. Chairman, to make it much shorter.
    Going forward, prosecuting the campaign against ISIL in 
either Iraq or Syria will be extremely complex and challenging. 
We must not delude ourselves about this. Both Iraq and Syria 
are complex, messy situations where perfect outcomes are 
extremely unlikely. Whatever course of action we undertake will 
take years and dedicated effort. We will have major 
disagreements with our allies and partners about desired 
outcomes.
    Russia's role in Syria will be challenging. And while we 
seem to have overlapping interests with Iran and Iraq, our 
desired outcomes do not clearly align, and we certainly do not 
have the same overlapping interest in Syria. All of which is to 
say that these situations are going to be messy and require 
constant attention and management.
    Fortunately, managed correctly, we have a real path towards 
the goal of degrading ISIL, denying them safe haven, 
eliminating their leadership, and curtailing their ability to 
strike at our allies and at us. And I hope our panelists here 
will help to explain to us and the American people the 
strategy.
    Thank you, Mr. Chairman. And I ask unanimous consent to put 
it forward into the record.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]
    The Chairman. Mr. Smith 10 days ago had surgery on his hip, 
and he is recovering. I want to let you know he is fully 
engaged. Yesterday we had our Big Four meeting working on the 
bill, and he was telecommuting it. Technology made it possible 
that he was in the room with us and fully, totally engaged.
    One other thing I would like to mention at the outset. 
Several of our members will not be with us next year, some 
retired, some lost their election. Let me thank each of you for 
your service to this Nation, to your service on this committee. 
It is much appreciated. This committee has always tried to work 
in a bipartisan manner. Anyway, I think enough said. Thank you. 
Thank you for your service.
    Mr. Secretary.

   STATEMENT OF HON. CHUCK HAGEL, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Hagel. Chairman McKeon, Congresswoman Sanchez, 
members of the committee, thank you.
    [Disturbance in hearing room.]
    The Chairman. The Chair notes that there is a disturbance 
in the committee's proceedings. The committee will be in order. 
I would like to formally request that those in the audience 
causing this disruption cease their actions immediately.
    Thank you very much. Thank you to the Capitol Police for 
restoring order.
    Mr. Secretary.
    Secretary Hagel. Chairman, obviously your last hearing is 
not going unnoticed and unrecognized. So we shall proceed.
    As I was saying, I very much appreciate, and I know General 
Dempsey does, an opportunity to come back after a couple of 
months and update this committee on what we are doing and how 
we are doing it, why we are doing it. I know that this has not 
been, as you all know, the only communication we have had with 
this committee. We have had many, many briefings with your 
staff. Many of you I have spoken to directly, as well as 
General Dempsey and many of our military leaders. So to have 
this opportunity to bring together in some convergence of 
explanation of what we are doing and why and how, I very much 
appreciate.
    Mr. Chairman, your leadership and your service to this 
committee, to this Congress, to this country over many years 
has been recognized many times, appropriately, over the last 
few months. It will continue to be recognized. It should be 
recognized. I want to thank you personally for your support, 
your friendship. I have valued that over the last 2 years I 
have had the privilege of holding this job. I will miss you 
personally, and I know this committee will, but there are so 
many very able and capable and dedicated people that are right 
next to you that will carry on.
    So I didn't want this opportunity to go without me 
expressing my thanks and best wishes to you and to your family 
and to the next chapter in your life and your many new 
adventures that lie ahead.
    As I noted, I am joined this morning by the Chairman of the 
Joint Chiefs of Staff, General Martin Dempsey, who I too have, 
like you, have appreciated his wise counsel and his partnership 
as we have dealt with some of the most complex and difficult 
issues that I think this country has faced in a long time, and 
I know General Dempsey appreciates all of your service as well.
    General Dempsey has played a critical role over the last 6 
months especially in shaping and developing our strategy, along 
with our CENTCOM [U.S. Central Command] commander, who you all 
know, General Lloyd Austin. To General Austin and his 
commanders and to our men and women, I want to thank them.
    Mr. Chairman, President Obama, Chairman Dempsey, General 
Austin, all of our leaders and I have been very clear that our 
campaign against ISIL will be long and will be difficult. We 
are 3 months into a multiyear effort. As we enter a new phase 
of this effort working to train and equip more counter-ISIL 
forces in both Iraq and Syria, we will succeed only with the 
strong support of Congress and the strong support of this 
committee.
    Since I testified before this committee 2 months ago our 
campaign against ISIL has made progress. ISIL's advance in 
parts of Iraq has stalled, and in some cases been reversed, by 
Iraqi, Kurdish, and tribal forces supported by U.S. and 
coalition air strikes. But ISIL continues to represent a 
serious threat to American interests, our allies in the Middle 
East, and wields still influence over a broad swath of 
territory in western and northern Iraq and eastern Syria.
    But as President Obama has said, ISIL will not be defeated 
through military force alone. Our comprehensive strategy is 
focused on supporting inclusive governance, sustaining a broad-
based regional and global coalition, and strengthening local 
forces on the ground. It also includes undercutting ISIL's flow 
of resources, countering ISIL's messaging, constricting the 
flow of foreign fighters, providing humanitarian assistance, 
and our intensive regional and global diplomatic effort.
    In Iraq, much more needs to be done to achieve political 
reform, but we are seeing steps in the right direction. In the 
wake of years of polarizing leadership, Iraqi Prime Minister 
Abadi is leaning forward by engaging all of Iraqis' diverse 
communities. He has appointed a Sunni defense minister after 
that post was left vacant for more than 4 years, and he is 
moving to create an Iraqi national guard which would empower 
local forces, especially in Sunni tribal areas of Anbar 
Province, while aligning them with the central government.
    And you may have noticed that yesterday it was announced 
that he replaced 36 of his most senior commanders, integrating 
the Iraqi security forces with more senior Sunni leaders. This 
is essential to strengthening not only the Iraqi security 
forces, but strengthening a central government, a government in 
Iraq that in fact can build trust and confidence of the Iraqi 
people.
    Thanks to intensive diplomacy, America is not supporting 
this effort alone. We have built a global coalition to support 
local forces in both Iraq and Syria, a coalition of over 60 
nations that are contributing assistance ranging from air 
support to training to humanitarian assistance. Since I 
testified here, 16 nations have joined the military campaign 
against ISIL.
    The first coalition air strikes in Syria involved Bahrain, 
Jordan, Qatar, Saudi Arabia, and the United Arab Emirates, a 
tremendous demonstration of unity among our Middle East Arab 
partners. Coalition partners have carried out 130 air strikes 
against ISIL in both Iraq and Syria. Last week, Canada launched 
its first air strikes in Iraq, bringing the total to 12 nations 
participating in strike operations in Iraq and Syria, as 
additional partners provide tanker, command and control, and 
intelligence, surveillance, and reconnaissance aircraft.
    Coalition nations have also pledged hundreds of personnel 
to support our mission to train, advise, assist, and help build 
the capacity of Iraqi forces. Our global coalition is also 
helping shape the burden of the campaign, with nearly all our 
coalition partners funding their own contributions. With the 
President's special envoy for our counter-ISIL coalition, 
General John Allen, General Allen is in the lead as he 
coordinates the coalition's strategy and contributions across 
all our lines of effort with our coalition partners.
    As a coalition and as a nation, we must prepare for a long 
and difficult struggle. There will be setbacks, but we are 
seeing steady and sustainable progress. And, Mr. Chairman, I 
think that is an important part of answering the questions we 
have, the questions we have about our own strategy that we ask 
ourselves, the questions you have about our strategy. Can we 
sustain it? Can it be sustained after, at some point, we leave? 
That is a critical component of our strategy, asking that 
question and answering that question.
    We are seeing steady and sustainable progress along DOD's 
two main lines of effort. First, we are seeing progress in 
degrading and destroying ISIL's warfighting capacity and in 
denying safe haven to its fighters. Directly and through 
support of Iraqi forces, coalition air strikes have hit ISIL's 
command and control, its leadership, its revenue sources, its 
supply lines and logistics, and impaired its ability to mass 
forces.
    In recent weeks, these strikes helped Peshmerga forces 
press ISIL out of Zumar in northern Iraq and helped Iraqi 
security forces begin retaking areas around the major oil 
refinery at Baiji. Last weekend, air strikes hit a gathering of 
ISIL battlefield commanders near Mosul. ISIL fighters have been 
forced to alter their tactics. We knew they would. They will 
adapt, they will adjust, maneuvering in smaller groups, 
sometimes making it more difficult to identify targets, hiding 
large equipment, and changing their communications methods.
    Sustaining this pressure on ISIL will help provide time and 
space, time and space for Iraq to reconstitute its forces and 
continue going on the offense. This pressure is having an 
effect on potential ISIL recruits and collaborators, striking a 
blow to morale and recruitment. We know that. Our intelligence 
is very clear on that. And as Iraqi forces build strength, the 
tempo and intensity of our coalition's air campaign will 
accelerate in tandem.
    We need to continue to help build partner capacity so that 
local forces can take the fight to ISIL and ultimately defeat 
it. Today, many of the approximately 1,400 U.S. troops in Iraq 
are engaged in advise-and-assist programs with Iraqi and 
Kurdish forces.
    As you know, last week the Defense Department announced 
that we will expand the support to Iraqi forces by deploying up 
to 1,500 additional military personnel, including 2 new advise-
and-assist centers at locations beyond Baghdad and Erbil, as 
well as 4 new training centers in northern, western, and 
central Iraq.
    I recommended this deployment to the President based on the 
request of the Government of Iraq, U.S. Central Command's 
assessment of Iraqi units, General Dempsey's recommendation, 
and the strength of the Iraqi and coalition's campaign plan. 
These additional troops and facilities will help strengthen and 
reconstitute Iraqi forces, expanding the geography of our 
mission but not the mission itself. U.S. military personnel 
will not be engaged in a ground combat mission.
    Our phased plan to help strengthen Iraqi security forces 
has three major components.
    First, our advise-and-assist mission that is partnering 
coalition advisors with Iraqi forces at the headquarters level. 
U.S. and coalition advisors are already helping plan current 
and future operations. And, as noted, we will expand this 
mission with two new advise-and-assist centers that we have 
announced.
    Second, we will support the regeneration of Iraqi forces so 
that they are better equipped to launch offensive operations 
over the coming year. CENTCOM's new training sites in northern, 
western, and central Iraq will help train 12 Iraqi brigades, 
and more than a dozen coalition nations have expressed their 
intent to send trainers and advisors to help build the capacity 
of Iraqi forces.
    Third, we will concentrate on broader security sector 
reform to help transform Iraqi forces into a more coherent and 
capable unified force. This includes Prime Minister Abadi's 
initiative to develop provincially based national guard units, 
which I mentioned earlier.
    Coalition partners are playing an important role in all of 
these efforts by providing advisors and trainers to help 
regenerate Iraqi combat brigades. Together, we are also 
providing more arms and equipment to Iraqi security forces. 
This year, the United States alone has shipped more than $685 
million in critical equipment and supplies to Iraq, ranging 
from grenades and small arms to tank ammunition, helicopter 
rockets, and Hellfire missiles, hundreds of which will be 
arriving this month. U.S. and coalition partners together have 
delivered over 2.7 million pounds of supplies, including 33 
million rounds of ammunition to Peshmerga forces alone.
    Mr. Chairman, in Syria our actions against ISIL are focused 
on shaping the dynamic in Iraq, which remains the priority of 
our counter-ISIL strategy. But we are sober about the 
challenges we face as ISIL exploits the complicated, long-
running Syrian conflict. Because we do not have a partner 
government to work with in Syria or regular military partners 
to work with as we do in Iraq, in the near term our military 
aims in Syria are limited to isolating and destroying ISIL's 
safe havens.
    Coalition air strikes in Syria are accomplishing this by 
containing or continuing to target significant ISIL assets, 
which has impaired ISIL's ability to move fighters and 
equipment into Iraq, disrupted their command and control, 
damaged their training bases, and significantly limited their 
financial revenue by hitting captured oil fields and disrupting 
their crude oil distribution and collection sites.
    The Defense Department's longer-term effort is to train and 
equip credible moderate Syrian opposition forces, especially 
from areas most threatened by ISIL. This will require at least 
8 to 12 months to begin making a difference on the ground. We 
know the opposition will continue to face intense pressure in a 
multi-front battlespace, and we are considering options for how 
U.S. and coalition forces can further support these forces once 
they are trained and equipped.
    These forces are being trained in units, not as 
individuals. Our strategy in Syria will demand time, patience, 
perseverance to deliver results. We cannot accomplish our 
objectives in Syria all at once. The position of the United 
States remains that Assad has lost the legitimacy to govern.
    But there is no purely military solution to the conflict in 
Syria. Alongside our efforts to isolate and sanction the Assad 
regime, our strategy is to strengthen the moderate opposition 
to the point where they, where they can first defend and 
control their local areas. Next, go on the offense and take 
back areas that have been lost to ISIL. And ultimately, as 
their capability and leverage develop, to create conditions for 
a political settlement in Syria.
    Thanks to the broad bipartisan support in Congress, Mr. 
Chairman, including majorities in both parties, preparations 
for our Syria train-and-equip mission are now complete. We have 
established a combined joint interagency task force to 
coordinate the coalition's train-and-equip program for Syria. 
Saudi Arabia, Turkey, and other partner nations have agreed to 
host training sites. Development of those sites, recruiting, 
and vetting will begin once Congress has authorized the actual 
funding, but we are still moving forward doing what we must do 
to prepare for that vetting process and that training.
    We are still at the front end of our campaign against ISIL. 
As President Obama told leaders of both Houses of Congress last 
week during a session which I attended with General Austin, 
congressional support, your support is vital for the campaign 
to succeed. As you all know, the administration is requesting 
$5.6 billion in additional Overseas Contingency Operations 
funding for fiscal year 2015 to help execute our comprehensive 
strategy in Iraq and Syria, $5 billion of it for the Department 
of Defense; $3.4 billion would support ongoing U.S. military 
actions against ISIL under Operation Inherent Resolve; $1.6 
billion would go toward a new Iraqi train-and-equip fund 
devoted to helping reconstitute Iraq's security forces.
    This fund will be critical for enabling Iraqi security 
forces, including Kurdish and tribal forces, to go on the 
offense in 2015, and it will require the Iraqi Government and 
coalition members to make significant contributions as well. 
Over 60 percent or $1 billion of the $1.6 billion fund would be 
available initially. The remaining $600 million would not be 
released until the Government of Iraq and coalition partners 
have provided at least $600 million of their own contributions 
because the Iraqi Government must invest in its own security 
and its own future.
    As the President said last week, the administration will be 
engaging the Congress to support the effort against ISIL by 
enacting a new and specific authorization for the use of 
military force, one that reflects the scope and the challenges 
of our campaign against ISIL. DOD will work closely with the 
Congress on each component of this effort. As this mission 
continues to progress, we will continue to evaluate and 
reevaluate each element of our strategy.
    Having just marked Veterans Day earlier this week, let me 
again thank this committee for what you do every day to support 
all our men and women in uniform and their families serving 
this country across the world.
    Mr. Chairman, thank you.
    [The prepared statement of Secretary Hagel can be found in 
the Appendix on page 53.]
    The Chairman. General Dempsey.

 STATEMENT OF GEN MARTIN E. DEMPSEY, CHAIRMAN, JOINT CHIEFS OF 
               STAFF, U.S. DEPARTMENT OF DEFENSE

    General Dempsey. Thank you, Chairman. I want to add my deep 
appreciation to you on behalf of the Joint Chiefs for your 
leadership and all you have done for the defense of our Nation. 
Your devotion to the men and women of the joint force, and, 
importantly, to their families, will continue to resonate 
throughout our ranks.
    I too appreciate the opportunity to appear before this 
committee this morning to discuss our strategy against ISIL. 
Secretary Hagel has already detailed the elements and the 
progress of our comprehensive approach against ISIL. Broadly, 
our strategy is to reenforce a credible partner in the Iraqi 
Government and assist regional stakeholders to address the 20 
million disenfranchised Sunnis who live between Damascus and 
Baghdad. They have to reject the ISIL ideology from within.
    We are implementing an Iraq-first strategy enabled by the 
coalition, but as I have said before, it is not an Iraq-only 
strategy. It will evolve through the coalition and with 
multiple lines of effort and over time. We need to squeeze ISIL 
from multiple directions. We need to deny them safe haven and 
disrupt their activities in Syria. We need to build up a Syrian 
opposition to confront them. And we need to take a long view. 
Achieving the outcome we desire requires that the multiple 
lines of effort all have to move apace of each other.
    These lines of effort include counter-financing, counter-
foreign fighter flow, counter-messaging, humanitarian aid, 
economic progress, the air campaign, restoring an offensive 
capability to the Iraqi security forces, and a ground campaign 
managed by the Iraqi security forces with the ISF from Baghdad 
and the Peshmerga from the north, with contribution from the 
tribes, and in particular, in Al Anbar Province and in Nineveh 
Province.
    In ongoing dialogue with my coalition counterparts there is 
a consensus across the coalition about our common vision and 
the objectives across those lines of effort, and there is a 
strong commitment to work together closely in this complex and 
long-term undertaking. Progress will be uneven at times, but 
with strategic patience, the trend lines favor the coalition 
over the long term.
    We are alert that the assumptions that underpin our 
campaign will be challenged. Most notably, we don't yet know to 
what degree the new government of Iraq will be able to convince 
the Kurds and the Sunnis that it intends to have a government 
of national unity, one that gives the people of Iraq confidence 
that they have a future other than through ISIL's radical 
ideology, and we don't know how sectarianism will ultimately 
affect the region and our campaign. We will continue to revisit 
and review our assumptions as the campaign evolves, and we will 
adapt.
    Which brings me to resources. Our commitments across the 
globe, as you well know, are up. Resources are down. And to add 
to that, sequestration is only months away. Every day that we 
don't have budget certainty, flexibility, and time means that 
we will continue to erode our readiness, and over time I will 
have fewer military options to offer.
    The Joint Chiefs and I appreciate your support to help us 
work our way through not only our national security challenges, 
but also the resources and the flexibility necessary to meet 
them. Thank you.
    The Chairman. Thank you.
    General Dempsey, in September you testified to our 
colleagues in the Senate that, I quote, ``If we reach the point 
where I believe our advisors should accompany Iraqi troops on 
attacks against specific ISIL targets, I will recommend that to 
the President,'' end quote.
    However, during a recent interview on ``Frontline,'' Deputy 
National Security Advisor Ben Rhodes stated that the President 
will not reconsider his boots-on-the-ground limitation 
regardless of any recommendation you might provide. 
Furthermore, the President seems to equate boots on the ground 
to a 150,000-person U.S. invasion force. I haven't heard anyone 
talk about sending in divisions. So please help us understand 
the circumstances where you would envision the need to 
introduce U.S. military troops into combat situations and the 
size and types of forces or capabilities that these would be.
    General Dempsey. Thanks, Chairman.
    First, I want to make sure that I mention, I have never 
been limited in my ability to make a recommendation of any size 
or sort to the President of the United States.
    As we look ahead to the campaign as it evolves, there are 
certain operations that could be more complex than the ones in 
which the Iraqi security forces are currently involved. They 
are doing a better job, and I think soon we would be able to 
describe it as a good job in Al Anbar and up moving north out 
of Baghdad, the Pesh[merga] moving south out of the KRG 
[Kurdistan Regional Government]. But there are some places 
along the path that I think will be fairly complex terrain for 
them, including, for example, Mosul, and eventually as they 
need to restore the border between Iraq and Syria. I am not 
predicting at this point that I would recommend that those 
forces in Mosul and along the border would need to be 
accompanied by U.S. forces, but we are certainly considering 
it.
    The Chairman. The size and types?
    General Dempsey. Well, back to your point, it is probably 
worth mentioning, there are two ways we could go about this 
strategy to defeat ISIL. We could take ownership of it entirely 
and then gradually over time transition it back to Iraqi 
security forces, Peshmerga, tribes, Sunni opposition; or from 
the beginning we could enable them and then hold them 
accountable for the outcomes, because, after all, it is their 
country that is most threatened by this threat. Obviously we 
have taken the latter course.
    In taking that latter course, we have established a modest 
footprint, one that is focused on the development of the 
security forces, assisting them with planning, integration of 
fires, and advising and assisting them from higher 
headquarters. Any expansion of that, I think, would be equally 
modest. I just don't foresee a circumstance when it would be in 
our interest to take this fight on ourselves with a large 
military contingent.
    Could there be an exception? I mentioned assumptions in my 
prepared statement. One of our assumptions is that the 
Government of Iraq will be inclusive. One of the assumptions is 
that the Iraqi security forces will be willing to take back Al 
Anbar Province and Nineveh Province. If those assumptions are 
rendered invalid, I will have to adjust my recommendations.
    The Chairman. Thank you.
    The U.S. and our allies are facing an increased terrorist 
threat from ISIL, and former U.S. detainees, in part, make up 
the leadership of ISIL and also are fighting alongside ISIL.
    Secretary Hagel, how can the administration continue to 
press ahead with transfers from Guantanamo at this time? Isn't 
this in conflict with your policy of stemming the flow of 
foreign fighters?
    Secretary Hagel. Mr. Chairman, as you know, the Congress 
delegated the responsibility and the authority to make that 
ultimate decision based on the risk, security risk to the 
United States and our allies, of whether we would release any 
and which detainees from Guantanamo. I have, as I have noted in 
testimony before this committee, taken that responsibility very 
seriously, and every time I certify and send up documentation 
to this committee, I am saying to this committee, with my name 
and reputation, that I believe that the assurances 
substantially mitigate the risk to this country and to our 
allies of certain detainee releases.
    Now, in September, this committee may be aware of this 
number, the Intelligence Community released a percentage, based 
on their intelligence, on those who have returned to violent 
extremism since their release from Guantanamo in this 
administration, and I am dealing with what I have right now.
    And over the course of this administration's detainee 
release--I think there are over 80 total, I believe over 600 
during the Bush and Obama administrations--the Intelligence 
Community assessed that more than 90 percent of those detainees 
had not intended to or had in fact, we had no evidence of 
returning to the battlefield.
    Overall, you know what the President's position and policy 
is on closing Guantanamo--Department of Defense supports that, 
I support that--but not at any cost, not at any cost. So every 
certification that I make, bottom line, with all the other 
requirements by law that I have to comply with, and I do comply 
with every part of the law, in my best judgment, the best 
judgment of our Intelligence Community, of our Joint Chiefs, of 
the interagency, of our Secretary of State, Homeland Security, 
has to be unanimous before I will seriously entertain it. I 
believe then, if I can get the assurances required by the host 
governments and the mechanisms, and I go into detail, that it 
substantially mitigates the risk, then I will sign it, and I 
have.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I want to ask a little about what has changed with respect 
to working and training these Iraqi troops in order to make 
them effective. And I say it with all due respect because you 
gentlemen weren't necessarily involved in this, but I have been 
here for 18 years, so I have been clearly on this side asking 
some of these questions, because in Afghan, of course, we saw 
that, you know, we had ghost people in the Afghan Army meaning 
they didn't really exist. We had 63-year-old men, illiterate 
people, you know, and that is one of reasons why I think we 
have been so ineffective with respect to the training and 
bringing up of the Afghan forces.
    But I am particularly very interested in the Iraq 
situation. This goes all the way back to the Bush 
administration where they were throwing out hundreds of 
thousands of numbers of who was being trained and who wasn't, 
and of course they were completely and totally off and wrong. 
And so then what we saw was the Iraqi Army either run away from 
the fight with respect to ISIL or fall in with respect to ISIL. 
And some have said that it was the leadership, that Malaki, you 
know, wasn't doing the 60/20/20 thing, et cetera, et cetera.
    But my question is, what has changed or what needs to 
change in order for us to continue what I see as your strategy 
in part, what I call the ``Iraqification'' of that army, of 
having Iraqis actually fight the battle so that our people 
don't come in as boots on the ground? What is it that has 
changed or what did you learn from the fact that we haven't 
gotten it right in Afghanistan and we then haven't gotten it 
right in Iraq? What are you doing to change that so that these 
men actually do take the fight to ISIL and our men and women 
don't have boots on the ground?
    Secretary Hagel. Congresswoman, I will give you an answer, 
but I am going to also ask Chairman Dempsey to answer this 
because, as you all know, Chairman Dempsey spent a lot of time 
in Iraq, and there are few military leaders that we have today 
in this country who know as much about Iraq based on personal 
experience than General Dempsey. So I will give you my brief 
response, and then I think this committee will want to hear 
from General Dempsey on this.
    What has changed? Well, a number of things have changed. 
Let's start with ISIL and the threat of ISIL and what it 
represents. I have said before this committee, I have said in 
other places and believe it absolutely, we have never seen a 
threat like ISIL before. The comprehensive threat that ISIL 
represents, the sophistication, the armaments, the strategic 
knowledge, the funding, the capacity, the ideology, it is new. 
The threat is significantly worse than we have seen ever 
before, not just in Iraq but in the Middle East, what ISIL 
represents, certainly to the future of Iraq.
    Second, you have a----
    Ms. Sanchez. Mr. Secretary, I understand the threat of 
ISIL. I am asking what is the difference in the Iraqi men that 
we have in the forces there in making a difference, not running 
away from the battle----
    Secretary Hagel. Well, I am going to----
    Ms. Sanchez [continuing]. Being trained correctly, being 
led correctly?
    Secretary Hagel. I am going to get to that. But I think it 
is important, you ask what is the difference. There are a lot 
of differences, like I said, starting with ISIL.
    Second, a national unity government by a new Prime 
Minister, who in fact, as I said in my testimony, for the first 
time has designated, picked a minister of defense. We haven't 
had a minister of defense in Iraq for more than 4 years. Prime 
Minister Malaki took that job unto himself, as he did the 
minister of interior. This new minister of defense and this new 
government are reconstituting the leadership of the Iraqi 
security forces. As I have noted in my testimony, 36 new 
commanders were switched, starting at the top, across the top.
    Men and women will not fight if they do not have confidence 
in their leaders, if they do not have confidence in their 
country, in their government, if their government won't support 
them. Those are fundamental changes.
    Now, let me hand this off to General Dempsey, and I think 
get to more of the specific points.
    Ms. Sanchez. And with respect to that second point, maybe, 
General Dempsey, you can clarify whether those 36 new 
commanders are a 60/20/20 split or the same as before.
    General Dempsey. Well, I am hoping we will find out. We 
don't know yet. We have got some who have been retired, some of 
who have been relieved, some of who have been moved, we are not 
yet familiar with who is taking their place. And I hope it is 
not actually some artificial 60/20/20 ratio because what you 
really want to get into the ISF is somebody who can actually 
lead and fight and inspire and be inclusive. But we will see. 
We will see here very shortly actually who takes the place of 
those who have been changed.
    This is a very brief answer to a very complex question. We 
left Iraq, and we left it with some things undone. We hadn't 
fully established a logistics architecture, an intelligence 
architecture. They did not have close air support and the 
capability to integrate fires. And we left there with a 
Ministry of Defense that was largely dysfunctional in the way 
that it would assign leadership. And they knew that, they knew 
we knew that. But it was not a completed work. It remained a 
work in progress.
    And then to couple that back to the Secretary's comments, 
what creates courage on the battlefield is confidence that you 
have got somebody at the central government that actually will 
care for you and your family. I mean, look, you don't think we 
would be out there swinging and fighting if we didn't have the 
support of the Congress of the United States and the kind of 
support that the American public provide to our men and women 
in uniform. So we really can't hold the Iraqis to a higher 
standard that just simply didn't exist.
    That is why I have said that one of the important 
assumptions about this campaign is that the Iraqi Government 
does establish its intent to create a government of national 
unity. I can predict for you right now, if that doesn't happen, 
then the Iraqi security forces will not hold together.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And thank you both for being here.
    Mr. Secretary, you mentioned that the President said that 
he would be engaging Congress to support a new, updated, 
revised authorization for the use of military force. My 
understanding is in every previous instance an administration 
has proposed language and sent it up to the Congress. Is this 
administration going to propose language and send it up to us, 
and if so, when?
    Secretary Hagel. Congressman, I don't know specifically 
what they are going to propose. I don't know specifically if 
they are going to send it up as a legislative proposal. I do 
know that conversations are being held right now, have been 
with various Members and their staffs about the right approach. 
The President said, as you know, last week, that he intends to 
engage Congress on this. I know the President has had specific 
conversations with specific Members of both the House and 
Senate on this.
    Mr. Thornberry. Well, I would just comment that having 
conversations is one thing, but as we learned with the 
authorization to train and equip the folks in Syria, until you 
get words on paper, it is kind of hard to make progress.
    Let me follow up a little bit with some of your comments 
that you made to Ms. Sanchez, and I noted, never before seen a 
threat like ISIS [Islamic State in Iraq and Syria], or ISIL, 
worse than we have ever seen before. One of the key questions 
underlying all of this is to what extent we can ultimately be 
successful against ISIS without dealing with Assad. And what is 
your view of that? Some people believe, some of our closest 
allies involved in this effort believe that we can only be 
successful against ISIS if we become involved in the effort 
against Assad.
    Secretary Hagel. Congressman, it is a fundamental question 
you ask, and I will answer it this way. First, let me just make 
a brief comment about my assessment about ISIL. I make that 
assessment--and by the way, it is not only mine--but when you 
look at the brutality, the slaughter, the indiscriminate 
brutality and slaughter of what ISIL is doing and has been 
doing, killing, slaughtering, murdering women and children, 
Sunni, Shi'a, Kurd, minorities of any kind, completely 
indiscriminate, and the sophistication of that, and again, when 
you add all that up, represents a pretty clear and different 
kind of threat.
    Now, how does that relate to your question about Syria? I 
think it is also clear that Assad, because of how he has 
governed, has brought this astounding instability on himself, 
on his people, on his country, and it has allowed groups like 
ISIL, Al-Nusra, Al Qaeda is still there, other terrorist 
organizations, to be strengthened for obvious reasons. But just 
alone dealing with Assad where we are now, maybe 2 years ago, 3 
years ago, that is not going to put ISIL back in the box or 
defeat, beginning with degrading or defeating ISIL.
    Assad is part of the equation, of course, but when you look 
at what ISIL dominates now, the swath of the control they have, 
eastern Syria, much of northern and western Iraq, you could 
change Assad today and that is not going to change all the 
dynamics quickly, certainly in Syria. But who are you going to 
replace Assad with, and what kind of an Army would take on 
ISIL?
    So, yes, Assad is part of it. Yes, it is the longer term 
part of this. To find a stable government, leaders in Syria, to 
be able to bring some stability to that country is part of it. 
But ISIL is right now, and ISIL is threatening the country of 
Iraq and the Government of Iraq. And so that is why we are 
dealing with that component first, because we must. They are a 
threat to our allies. They are a threat to us.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Secretary Hagel, you have my first 2 minutes, and, General 
Dempsey, you get the next 2.
    So for Secretary Hagel, there has been no discussion yet of 
the OCO request for 2015, which is $5.6 billion, and I am 
wondering not what is in it. We have some information on that. 
But what do you know about the current 2014 OCO request through 
the end of the CR [continuing resolution], what is in that, and 
why do you need an additional 5.6 in the 2015 given that there 
is authority for you, at least through the CR, for out of 2014 
money?
    Secretary Hagel. Well, the quick answer to your question as 
to why do we need additional. As I have noted in my testimony, 
part of that new additional money, the $5 billion for defense, 
is for a new train-and-equip program in Iraq. When we had the 
budget hearings, when the original OCO submissions were made 
months and months ago, that wasn't the case. So it is a new and 
sustaining effort.
    The other dollars are for the continuation, which we didn't 
have 6 months ago either, of our efforts in Syria and Iraq, air 
strikes, train and assist, train and equip, will be in the 1.6, 
but the continued assistance and other assistance that we are 
giving Iraq.
    So it is separate, it is new, it is different, and 
particularly the sustainability of us being able to do that and 
carry it out. And we thought too it was the most honest way to 
do it, set up a fund, let everybody know the accounting and how 
we are doing it and why. So that is essentially the bottom line 
of why we presented it the way we did.
    Mr. Larsen. All right. Two minutes. Good job. Thanks.
    General Dempsey, somewhat related. The defense has 
requested a broad waiver of existing laws in this request for 
the Iraq train and equip, and I understand there is a 
discussion about requesting a similar waiver for the Syria 
train and equip. Why does the Department need such a waiver and 
what would the impacts be if you didn't get waivers and you, 
for example, had to follow existing acquisition laws in order 
to implement?
    General Dempsey. Yeah, the issue is pace, I think, is 
probably the short answer to your question, Congressman. We 
think that a national security waiver in the hands of the 
Secretary of Defense allows us to move with the pace we believe 
we need to move in an environment that where--you know, it is 
interesting, one of the realities of this campaign is kind of 
the conflict between progress and patience, you know what I 
mean. And so I have mentioned that strategic patience is 
actually a virtue in this kind of conflict. I think progress 
purchases patience, and in that context the waiver would allow 
us to move at a pace that would allow us to produce that kind 
of progress that would, as a result, result in patience.
    Mr. Larsen. All right. That is fine. Thank you both for 
giving me some food for thought. I appreciate it. I appreciate 
you coming in.
    Yield back.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Thank you.
    Mr. Secretary, it is kind of ironic, the last time that I 
heard before today a Secretary of Defense talk about military 
involvement in Iraq was Secretary Donald Rumsfeld that got us 
into a war that was unnecessary.
    I know ISIL is evil. There is no question about it. They 
need to be taken out. But I looked at some of your statements 
from 2002 when you were a Senator and how you felt about the 
obligation of a Member of Congress to make a decision to send a 
young man or woman to die. I also looked at your statements in 
2007 when, like myself, you came out against the surge in Iraq.
    Now we are possibly going to be asked by the President of 
the United States, like we were by George Bush, to authorize an 
AUMF. This is nothing but an abdication of our constitutional 
responsibility to give any President an AUMF. We tried this 
past year in June when we had the NDAA [National Defense 
Authorization Act] bill, Adam Schiff tried to sunset out the 
AUMF that we gave to President Bush, which has been used by 
President Obama, and I do not understand how we in Congress can 
continue to abdicate what the Constitution says is our 
responsibility.
    Before I get to a brief question, James Madison once said, 
``the power to declare war, including the power of judging the 
causes of war, is fully and exclusively vested in the 
legislature.'' And I do not believe, sincerely, because when 
this happens to be President Obama, he wants to have another 
AUMF or an extension of what we have, I hope that the Congress, 
both parties will look seriously at what is our responsibility.
    Because it is not going to be but so long. You have sent 
more and more troops to Iraq to train. Many of these are former 
Saddam Hussein loyalists, and now they are fighting with ISIL, 
and then some are still now fighting with the other side. It is 
very complex, I understand that, and I agree with that. But for 
goodness sakes, why in the world should we make such a 
commitment and we don't have an end point to it?
    I would like for you or General Dempsey, I have great 
respect for both of you, to submit for the record two things 
very quickly.
    Mr. Jones. How does this new war end, in your opinion?
    And I realize it is just your opinion, but that is very 
important because of who you are.
    What is the end state of what we are trying to accomplish? 
The American people--over 50 percent of the American people do 
not want our personnel in Syria or in Iraq. And I will be 
honest with you, I don't know how we can convince the American 
people that a nation that is financially broke--you sat right 
here, General Dempsey--and you are exactly right--sequestration 
and all the budget problems coming your way and yet you are 
asking for $5 or $6 billion to drop more armaments in Iraq and 
Syria. Where is it coming from?
    Please explain to the American people and to this Congress 
how this war is going to end someday, whether we are advisors 
or we are fighting. And I hope to God we are not fighting, and 
I hope we do not give the President a new AUMF.
    So if you will get those into the committee for written 
form, then, you won't have to answer the questions.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Jones. But this, again, it looks like we are going down 
the same road that Secretary Donald Rumsfeld told us we had to 
do, we had to do, and yet we had no end point to that as well.
    So thank you very much.
    Secretary Hagel. Congressman Jones, if I might just respond 
very briefly.
    You very accurately described my position when I was in the 
United States Senate. But it is basic, as you have noted, to 
the responsibilities of Congress. And an AUMF comes out of 
Congress. The authority of military force for a President, that 
authority comes from the Congress of the United States. And I 
too hope that Congress will engage in this. And I have great 
confidence the Congress will. They need to. They must. It is a 
responsibility of the Congress.
    So I am right with you in that point, and I will give you 
my best thoughts on your other question as well.
    Thank you.
    General Dempsey. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, for holding this 
important hearing. Secretary Hagel, and, General Dempsey, thank 
you for your time today.
    As I have stated before, I believe that ISIL could become a 
direct threat to the United States or our allies in Europe, and 
we must make efforts to avoid that threat. While I believe that 
we must keep all our options open, it must be a joint effort 
with our coalition and allies to stop ISIL.
    Secretary Hagel, what additional U.S. or allied military 
support do you believe it will take for the Iraqis, the Kurds, 
or the Syrian rebels to hold their current position and 
eventually advance to retake areas now controlled by ISIL?
    Secretary Hagel. Congresswoman, as I noted in my statement, 
that is a very important part of what we are doing to assist 
Iraqi security forces as they strengthen their capacity, 
capabilities. That is obviously a big part of the train-and-
equip effort as our coalition partners are with us on this, as 
well as a reinstitution of the Iraqi security forces at the top 
with confidence, with trust of the men and women in uniform and 
a unity government that they, in fact, believe is worth 
fighting for, as General Dempsey said, that they have some 
confidence in, not just for themselves, but their families.
    And so, as I have noted, it is a comprehensive strategy. I 
believe it can be done, but this is an Iraqi fight. It is their 
future. And we can help. We are helping. We are doing 
everything we can. And we will continue to support them as we 
will with our coalition partners. But that is the way I would 
just very briefly respond to the question.
    Ms. Bordallo. Thank you.
    General Dempsey, in testimony before the Senate back in 
October, you mentioned that OCO is not the solution to funding. 
And I have stated before that I agreed that the OCO credit card 
is going to come to an end sometime very soon. However, as the 
ranking member on Readiness, I am deeply concerned about the 
impact of the loss of OCO on readiness.
    When will you have a better sense of what this is going to 
cost, both monetarily and in manpower to continue operations 
against ISIL? What is the Department doing to plan and budget 
for this and other activities into the base budget?
    General Dempsey. Yeah thanks, Congresswoman. I did say 
that. In fact, I think I went on to say that OCO or the 
Overseas Contingency Operations fund was gas money and that the 
service chiefs actually also need the base to support the 
recruiting, training, organizing, and equipping of the force 
over time. You can't sustain the force with OCO. You can use 
it, and that is why I described it as gas money.
    To your question, we actually have a pretty good idea of 
what it is costing right now. And given that we think that our 
level of commitment is about what it will be for the 
foreseeable future, it is approximately $8 million a day. And 
the funding requests that the Secretary mentioned accounts for 
that.
    We are well aware of the desire to rely less on OCO and 
more on base. That is a debate--you know, from a military 
perspective, I can just tell you what I need. And you all have 
to guide how to provide what I need.
    But the base budget is an important component of readiness 
because it is the foundation on which we build.
    Ms. Bordallo. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Forbes. Gentlelady yields back the balance of time.
    Mr. Secretary, we understand that you recently had to 
postpone your trip to Vietnam and Burma to prepare for this 
hearing and others on Capitol Hill. And I know our allies and 
partners in the region are concerned with senior administration 
officials postponing important travel to the region, and I 
share their concern. But I hope they can understand that our 
government has the ability to walk and chew gum at the same 
time.
    While we are focused in this hearing on the ISIL challenge, 
we remain as committed as ever to America's enduring interests 
in the Indo-Pacific area, and I appreciate your attendance here 
on this important topic and the accommodations you have made to 
the hearing.
    But, also, I hope you will reschedule your trip and 
continue your strong record of engagement in Asia. And thank 
you for being here.
    The last time you were here, we asked a question about a 
strategy to cut off the finances for ISIL. And I think you were 
kind enough to acknowledge then that we needed to develop that, 
and I was just wondering if you could outline for us a little 
bit about the strategy that we have now in trying to cut off 
the finances of ISIL.
    Secretary Hagel. Congressman, thank you for your thoughts 
on the Asia-Pacific emphasis in rebalance.
    As you have accurately noted, I unfortunately had to make a 
decision and I didn't want to have to do that for the reasons 
you mentioned. As you probably know, since I have been 
Secretary of Defense, I have had six major trips to the Asia-
Pacific. This would have been my seventh. I will reschedule. We 
are planning on that rescheduling. I talked to all of our Asian 
partners--Pacific partners, explained to them why I was having 
to reschedule. And I get the emphasis. I agree with you 
completely.
    But at the same time, to your point about the 
administration being able to walk and chew gum at the same 
time, as you know, the President is there now and will be in 
that area for a few more days in different countries. We will 
have other follow-up visits as well. But I am rescheduling. It 
is important. There is no less emphasis on the importance of 
the rebalance.
    On your question about financing on ISIL, I alluded to a 
couple of things in my statement. When I talked about cutting 
off their more obvious oil sales as they have, as you know, 
taken control of some of the oil fields in eastern Syria as--
and they did have some in western Iraq. We have been able to 
take back some of that, the Iraqis have, in most all of it, 
Baiji oil refinery and so on.
    But that is one thing that we are doing and have been 
pretty effective. Have been able to not only disrupt that, but 
stop that oil flow out of there that gets into the borders. And 
they were getting a few million dollars a day from that.
    Now, other things, our Treasury Department is taking a lead 
on this, with partners all over the world, United Nations, 
European partners, Middle Eastern partners. We are trying to 
shut those money markets off, any way of funding and resourcing 
ISIL has, continues to have. We have made a global effort that 
we lead.
    As you know, they also get funds from contributions inside. 
We try to stop that through our intelligence communities. So 
this is as much of a focus as it was when I was here 2 months 
ago. It has to be for the reasons that I mentioned. And as I 
also said in our comprehensive strategy, cutting off those 
funds is a very big part of what we are doing and what we are 
attempting to do and will continue to do.
    Mr. Forbes. Thank you, Mr. Secretary.
    My time has expired.
    The gentleman from Connecticut, Mr. Courtney, is recognized 
for 4 minutes.
    Mr. Courtney. Thank you, Mr. Forbes.
    Earlier Secretary Hagel, some of your predecessors were 
cited as sort of some grounds or authority for the notion of 
boots on the ground, larger presence of boots on the ground in 
Iraq and, I suppose, in Syria.
    I want to just, for the record, again remind people that 
Secretary Gates in his farewell address to the West Point 
stated, I think, correctly that any Secretary of Defense who 
advises the President to engage in a ground invasion in the 
Middle East ought to have their head examined. And I think the 
approach that you have described here today, which is to 
strengthen local forces to provide assistance as we have seen 
unfold in Kobani is really the right approach to adhere to 
Secretary Gates' good advice, I think, which is that, you know, 
we are not going down that path again.
    And as someone who voted for the title 10 authorization, I 
just want to share with you: A mother from London, Connecticut, 
of a Marine came up to me and said, you know, I am with you to 
this you know, to this extent; but, you know, I am counting on 
you not to, again, open the door to just--a redux visit of what 
this country went through over the last 8 years or so. So I 
just want to share that input with you.
    Your request for additional resources obviously is in the 
middle of a lame duck where it is not clear where we are going 
yet in terms of whether it is going to be an omnibus with an 
additional amount as you have requested. There has been talk 
that the majority is actually, at least, discussing the notion 
of a continuing resolution into the next Congress.
    And I am just wondering if you could share your thoughts 
about what a CR would mean in terms of being able to, again, 
implement the operations that Congress authorized.
    Secretary Hagel. Well, recognizing the purview of the 
Congress on appropriations, I will answer your question this 
way because you have asked me for my thinking on it. I will 
begin with what Chairman Dempsey said. Any enterprise must have 
the flexibility and essentially the authority to plan, as best 
we can, every business, every nonprofit.
    And to take away that critical management tool for the 
Pentagon where we cannot plan, based on a continuing resolution 
every few months--maybe this will happen. Maybe this will 
happen, or maybe it won't happen, is really disastrous. And it 
does damage to our institution. It does damage to the 
confidence of our men and women that we ask to go out and 
serve. It does huge damage to our future investments.
    You know, people don't recognize sometimes that our defense 
enterprise has to be thinking years and years down the road. 
The platforms that we have today, the sophistication of our 
technology and our platforms far superior to anything since 
World War II or anybody else's. This just didn't happen. It 
didn't happen a year ago, 2 years ago, 2 years ago.
    These planning stages and investments in having some 
certainty that you have got to budget and you know what you are 
going to have in that budget is critical to planning. So 
continuing resolutions are not good for the Department of 
Defense.
    Mr. Courtney. And in terms of the specific operations that 
we are discussing today, I mean, again, is that just sort of, 
again, make it difficult for you to figure out what, you know, 
extent of operations you can conduct?
    Secretary Hagel. Well, you factor that in. That is exactly 
right. And when you take away--those are hugely important 
management tools, but we are talking about our national 
security here. We are not talking about putting out a new 
product or a new colored shoe or overcoat or automobile. We are 
talking about the national security of our country.
    So as much ability, flexibility that we have to have some 
certainty as to what is ahead, also, to retain a force that 
these young men and women, smart, they have got other options. 
And these young enlisted and officers think about what is 
ahead. Am I financing or are we going to continue to drawdown? 
What is the future? I understand it is an uncertain world, 
unpredictable world, but we all do.
    But you can't run institutions--especially the Department 
of Defense--responsibly on continuing resolutions.
    Mr. Forbes. The gentleman's time has expired.
    The gentleman from South Carolina, Mr. Wilson, is 
recognized 4 minutes.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    And, Mr. Secretary, General, thank you very much for being 
here today.
    The American people are counting on you to provide 
information, counsel to our President. And you have indicated, 
Secretary, national defense is your priority. And I am just so 
concerned that the President has an odd world view.
    It is inconceivable to me the release of trained mass 
murderers as detainees from Guantanamo builds goodwill 
anywhere. But it does put the American people at risk. It puts 
our military at risk.
    And I have a personal interest. Two of my sons served in 
Iraq. They developed a great appreciation of the people of Iraq 
who do want to live in a democratic society, not a totalitarian 
or authoritarian. Additionally, I have got four sons now 
serving in the military. And I believe in peace through 
strength. I am counting on you, and so are my constituents, the 
American people.
    In this regard, Mr. Secretary, the Islamic State, does it 
still pose an imminent threat to the people of the United 
States and is it an imminent threat to our allies?
    Secretary Hagel. Well, I--thank you, Congressman, and thank 
your sons. Again, I am well aware of their service and what 
your family has done for our country, continues to do.
    As I said in my statement and, I think, in some of the 
comments I have made here this morning, it is a threat. It 
continues to be a threat, a significant threat to the United 
States, to our interests, to our allies. And we have seen every 
dimension of that play out. So, yes.
    Mr. Wilson. And, in such a threat, would the capabilities--
say, the seizure of an extraordinary city, Mosul, that enhances 
the threat, doesn't it?
    Secretary Hagel. It does. And we are very honest about 
that. As I said in my statements, I think that there is good 
progress being made by the Iraqi security forces, Peshmerga, as 
we--just to give you one example. Over the weekend--you may be 
aware of this--there was a ceremony in Anbar Province. And 
about 2,000 Sunni tribesmen were there and are preparing to be 
sworn in to the Iraqi security forces. This is in the province, 
the general area of Mosul and the area that will have to be 
taken back.
    The ISIS--ISF forces have taken much of that back, not 
Mosul yet. They will. But the Mosul dam, Haditha dam--I 
mentioned in my comments Zumar, Baiji oil field, a lot of good 
news there.
    But, yes, of course, any time they hold significant, 
identifiable cities or pieces of geography, it makes it more 
difficult.
    Mr. Wilson. And we should remember that, indeed, Osama bin 
Laden operated from a cave, a safe haven in the middle of 
Afghanistan and was able to conduct mass murder in this country 
and around the world.
    And in regard to achieving a stable, self-reliant Iraq, can 
this be done with the personnel that you have sent or what do 
you anticipate?
    Secretary Hagel. Well, first, we, the United States, cannot 
assure a stable Iraq. The Iraqi people will have to do that. As 
I have said, we are supporting them. We are doing the things 
that we think are most important, the things they have asked us 
for, they have requested from us and that is a significant 
difference from recent years. They have invited us in. They 
have invited us with our coalition partners in to help them.
    But I believe Prime Minister Abadi and others understand 
the seriousness of this. It is imperfect, but they have to do 
it. And we will help them do it, but they have to do it.
    Mr. Wilson. Thank you.
    Mr. Forbes. The Chair recognizes Ms. Tsongas from 
Massachusetts for 4 minutes.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you--both of you for being here.
    I, like my colleagues, remain greatly concerned with recent 
developments in both Iraq and Syria. But given the long-term 
consequences of U.S. operations in the region, I think we have 
to be sure that the administration's overarching strategy and 
objectives are fully discussed and robustly debated here in 
Congress. This is especially important, given the lessons of 
the last decade when, despite 7 years of conflict in Iraq, 
4,500 American lives lost and more than $1.5 trillion spent, 
our military efforts did not resolve the sectarian conflict we 
are now confronted with.
    Given these harsh lessons and because a full-throated 
debate has not occurred, I have voted against a short-term 
authorization to train and equip the moderate Syrian forces. 
Before we move forward, we need to be clear on what we are 
asking and will ask of our brave service men and women, what 
the costs might be, how we are going to pay for any operations 
against ISIL, what the exit strategy is, what we are asking of 
our regional partners, their willingness and capability to 
meaningfully engage in this effort, and what our ultimate goal 
might be. But it seems to me the horse is ever more out of the 
barn.
    While I have appreciated the President's current commitment 
to not send U.S. ground troops into combat, I am troubled by 
the recent tasking of an additional 1,500 troops to Iraq and 
President Obama's statement that he has not ruled out deploying 
more troops.
    General Dempsey, I appreciate your candor. I think you are 
very forthcoming when you describe a complex, multifaceted, 
long-term effort that requires strategic patience in a 
situation that will continue to evolve. And you have said in 
the past and are clear about today saying that there are 
situations in which you could consider recommending ground 
troops.
    You also just described the very important role of the 
Iraqi security forces and the deep investment that we are 
making in bringing their capability back to par so that they 
can take on this task.
    But what if they are not up to the task? Could you talk 
about some scenarios you might envision? As you said, you only 
make recommendations. I would like you to talk, if you could, 
about some of the recommendations you might make if it becomes 
clear that the Iraqi security forces cannot take this on.
    General Dempsey. Yeah. What I would like to do, 
Congresswoman, is give you kind of an unclassified answer, but 
promise you that, in a classified session next week, we can 
talk about contingency planning.
    So if--I mentioned earlier, if some of the assumptions we 
have made are rendered invalid, of course, we will have to have 
a branch, as we call it in military terms, to our campaign 
plan.
    There are other--look, we absolutely need a credible 
partner to provide ground forces in that region so that we 
don't have to provide the ground combat power to accomplish the 
task. If the Government of Iraq fails to reach the kind of 
national unity agenda that we think they need, which would 
empower and encourage the Iraqi security forces, then, we will 
have to look for other partners in the region to assist us or 
build other partners in the region. But, again, I would defer 
to a classified setting anything more than that.
    I will say that since we--I think we agree that this is a 
long-term commitment. You mentioned end state. It is--the end 
state is defined as the--ultimately, the defeat of ISIL. I have 
actually said, including in my opening statement, that will 
occur when the 20 million disenfranchised Sunnis that live 
between Damascus and Baghdad reject that ideology and we see 
some indication, just, again, a glimmer of indication that that 
is beginning.
    ISIL has to continue to advance to succeed. It has to 
maintain momentum. And we have begun to break that momentum. 
And, then, I think we will have a clearer picture in answer to 
your question.
    One last point: This campaign will be marked or 
characterized--I have described it this way--three steps 
forward, two steps back and, at every step forward or back, we 
will debate about the size of the step.
    Ms. Tsongas. I look forward to your classified briefing.
    Mr. Forbes. Gentlelady's time has expired.
    The Chair recognizes the chairman of the Tactical Air and 
Land Subcommittee, Mr. Turner from Ohio.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Hagel, I want to personally thank you for your 
support for a provision that is in the National Defense 
Authorization Act that protects the custody rights of our 
service men and women.
    As you know, the House, on a bipartisan basis, has in the 
past 6 years taken action to provide a national standard to 
protect men and women in uniform custody rights.
    I appreciate your letter of October 30th where you both 
affirm the DOD support for that provision, but also go further 
in to say that this legislation does not affect other State 
custody laws and precludes Federal court jurisdiction.
    Thank you for the time you spent with me and for your 
thoughtfulness in this matter.
    General Dempsey, you said that you have never been limited 
in your recommendations to the President. We are also aware 
that he has never been limited in his ability to reject them. 
Our inquiry to you is not whether or not you have been 
forthcoming in your recommendations, but in the gap that might 
exist between your recommendations and the President's proposal 
that is before us. We all have concerns about how effective the 
air strikes have been as they have both been intermittent and 
in--and dispersed.
    Also, the issue, as Loretta Sanchez has raised, as to how--
having the--you know, the diversity of populations participate 
in being able to take Iraq, how, the Kurdish and other forces 
might be able to be armed and your assurances that that will be 
able to be accomplished, working with the Iraqi regime.
    So our question to you is: Is in evaluating our support for 
the President's proposal, we would like to know what is missing 
in your recommendations versus what we are receiving from the 
President?
    General Dempsey. Before I actually answer the question, you 
have described the air campaign as--I think you described it as 
erratic or episodic.
    Mr. Turner. Intermittent.
    General Dempsey. Intermittent. I knew there was a word.
    Mr. Turner. I would never say ``erratic'' because I have 
such regard for you.
    General Dempsey. Thanks for the opportunity.
    But the word I want to add is ``precise.'' And, you know, 
look, the thing that will cause the Sunni population to 
actually take heart and begin to reject ISIL is if we are very 
careful not to create circumstances of civilian casualties or 
to, in some way, impact on other groups, tribes, for example.
    So we have got to be very, very deliberate and very precise 
in our air campaign. And I think we are accomplishing that. In 
just over 800 strikes to date, I think we have been both 
successful and careful.
    To your point about whether there is a gap? I can say to 
you today there is no gap. Both General Austin and I have made 
recommendations, and those recommendations have been accepted. 
Any recommendation is made with a risk assessment. You know 
there is high-risk options, moderate-risk options, and low-risk 
options.
    A low-risk option to the campaign would probably include 
the introduction of U.S. ground forces to take control of the 
fight. Neither General Austin nor I and certainly the Secretary 
of Defense believe that is the right thing to do at this point. 
So our--there is no gap right now.
    Mr. Turner. You know that we will continue, obviously, to 
provide oversight and inquiry in that. And we hope that you 
will certainly share with this committee, to the extent that 
that gap evolves, because we are very concerned about the 
success of what the President's goal is to defeat and degrade 
ISIS. And we look to your leadership for that.
    Thank you, Mr. Chairman.
    Mr. Forbes. The gentleman from Iowa, Mr. Loebsack, is 
recognized for 4 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. Thanks to both of you 
for being here.
    I was writing down lots of questions while you were talking 
because I think I probably reflect my constituents' concerns 
about what we are doing there and the number of questions that 
they have. This doesn't even begin to get at what I have been 
hearing over the course of the past several months in my 
district in Iowa, at least. And I may be repeating some things. 
I had to step out for about half an hour, so I apologize if I 
am.
    But if you could, first, explain in, at least, some detail, 
what is the ISIS threat regionally or otherwise? Can you lay 
that out? What is the threat?
    Secretary Hagel. Well, the threat--you started, I think, 
with regionally or otherwise, is the extent of the brutality 
and the inhumanity of what they have been doing, what they 
continue to do as they have expanded their base up until--most 
recently until we, the United States and our coalition 
partners, got into this about 3 months ago. They are a threat 
to the Iraqi Government. As was noted here in an earlier 
question about, they still control the second largest city in 
Iraq, Mosul.
    As they--if they would be allowed to continue, they would 
not only, as they already have, to a great extent, inflame a 
sectarian war and continue to gather momentum with their 
ideology, which brings in their successes and momentum foreign 
fighters who hold passports from the United States, from 
European nations. That starts to extend the threat to not just 
the region and to Iraq and countries there, but to Europe, to 
the United States. And I could continue, but I think you get 
the picture.
    Mr. Loesback. Yeah. Thank you.
    We have not heard the word ``counterinsurgency'' in this 
debate, I don't think, because that was obviously our approach 
to Iraq and Afghanistan earlier on. And then, correct me if I 
am wrong, but it seems, though, we kind of then transformed 
whatever military operations we have been doing in this regions 
to counterterrorism perhaps.
    Where would this fall? What you are trying to do, where 
would this fall if there was a contingency as such--maybe there 
isn't. Explain to me if there isn't--but between 
counterterrorism and counterinsurgency?
    Because, in fact, ISIS or ISIL is creating a state if they 
are actually creating governments. And if they are 
consolidating their control, might counterinsurgency be really 
the way to go as far as responding to them?
    Secretary Hagel. Well, I think our----
    Mr. Loebsack. I am not advocating that. I am just asking 
from an analytical standpoint.
    Secretary Hagel. No. I think our strategy--and it is a good 
question--is pretty clear on this point because you have 
really, I think, hit the centerpiece.
    Our strategy is counter-ISIL. And if you were here for my 
testimony, I walk through a number of those points. General 
Dempsey has further refined those points as to how we are 
countering ISIL, what are we doing about that.
    And one of the points that I noted, it is a comprehensive 
strategy. It has to be. Many of the questions here this morning 
have gotten into that, one, being their funding, cutting off 
their funding, coalition partners, all the partners of the 
region involvement--involved strengthening the Iraqi security 
forces, doing everything we can to support a new Iraqi unity 
government that reaches out to everybody, the Sunni, the Shi'a, 
the Kurds, all the minorities, giving everyone some 
participatory power in their government, which elicits 
confidence and trust in their government. So that is our 
strategy.
    Now, we can frame it up by however way you want. But it is 
counter-ISIL. It is a strategy that is focused on this 
particular issue, this particular threat. And the world is 
dynamic and changes, and we are not going back to what worked 
in--12, 10 years ago. We learn from mistakes. We learn from 
things that worked. But this is a unique threat.
    Mr. Forbes. The gentleman's time has expired.
    The gentleman----
    General Dempsey. May I, Chairman? I can do this in 30 
seconds.
    Mr. Forbes. Thank you.
    General Dempsey. Clearly, we are alert to any threats that 
could emanate from Iraq and Syria with planning and operational 
activities that could threaten the homeland. And you have seen 
us take some actions here of late that clearly align with a 
counterterror strategy.
    I would suggest to you that Iraq is actually conducting a 
counterinsurgency. And we are enabling it with our air power, 
our planning, and our assistance. Because they do have an 
insurgency on their hands. And, actually, it allows them to 
think about, not just the military component. So as they clear 
an area, whether it is up to Baiji or out to al Assad, they 
have got to follow it up with governance, economic development, 
humanitarian assistance. Otherwise, that insurgency will 
persist.
    Mr. Loebsack. All right. Thank you.
    General Dempsey. Thank you.
    Mr. Forbes. The gentleman from Minnesota, Mr. Kline, is 
recognized.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentlemen.
    Just following up on this discussion here the last minute 
or two, I think it is important for all of us in this 
committee, all of us in America for that matter and certainly 
you gentlemen to keep the focus on what the policy is. The 
policy is to defeat ISIS, our enemy. Whatever we do with Iraq 
is a tool in achieving that policy.
    It is not--our ultimate goal here isn't to protect Iraq and 
build a stable Iraq. We just need that tool to affect our 
policy of defeating ISIS.
    And sometimes I think we forget. We start talking about how 
many wars we are in or what are we doing, can the Iraqis defend 
their own country and so forth. All useful discussion. But the 
policy is to defeat ISIS.
    General Dempsey, are Americans flying helicopters now in 
Iraq?
    General Dempsey. Yes.
    Mr. Kline. Thank you.
    And in a classified session, I would like to get some more 
information about what that force looks like.
    But it reminds me that, while we may have forces in 
compounds doing various intelligence and logistics and so 
forth, we actually have Americans out and about in harm's way. 
And that makes me think that I hope, and, again, this is 
probably a discussion for another day--that we have good 
American medical support for those soon to be 3,000 or so 
American forces there. We don't want Americans in harm's being 
reliant on, in this case, Iraqi medical support. So, again, 
probably a discussion for another day.
    And then my question, General Dempsey, is: You said in an 
earlier answer to a question, as you were talking about turning 
over to Iraqi security forces some responsibility to do some 
fighting, that, if they can't do it, we would, quote, ``hold 
them accountable.'' I can't understand what that means, ``hold 
them accountable.'' What would--how would we do such a thing, 
hold them accountable?
    General Dempsey. Yeah. I actually think, Congressman, maybe 
there is two answers that have been--that have been pulled 
together into one to create that confusion.
    What I said was that, among the tenets of our strategy is 
that, as we assist the ISF and the Peshmerga, that the 
Government of Iraq has to be held accountable for progress that 
matches the military progress.
    Mr. Kline. But what does that mean?
    General Dempsey. Well, what that means is, if they do not 
form and actually manifest this national unity agenda, then, 
frankly, it will be among--I will be among those that recommend 
that we do not support them to the degree we are supporting 
them. Because that has got to--there has to be some 
conditionality to our support, it seems to me.
    Mr. Kline. Well, I--clearly, I mean, I agree with you. I am 
just not sure that we know yet what that ``hold accountable'' 
means. We don't give them any more money? What? I don't know 
what that means.
    But I do think that is important that we all--and certainly 
the two of you--think about--and the President and so forth, 
what does that mean, hold them accountable? Again, keeping in 
mind what our policy is and what your job is, is to defeat 
ISIS.
    Mr. Chairman, I yield back.
    Mr. Forbes. The gentleman yields back.
    The Chair recognizes the gentleman from California, Mr. 
Garamendi, for 4 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    General Dempsey, thank you very much for your service and, 
Mr. Secretary, the same. We appreciate all that you are 
attempting to do.
    My question, General Dempsey: Are we at war in Iraq and 
Syria?
    General Dempsey. We are at war against ISIL, yes, sir.
    Mr. Garamendi. Since that is the case, would you, 
Secretary, please provide in writing the most recent legal 
authority for the United States to conduct such a war. We know 
that, previously, there was talk of the War Powers Act. But, 
apparently, that is no longer the case since 90 days has passed 
and we are still at war.
    Perhaps there is the Iraq or the Afghanistan authorization 
to use military force, but I would like to have the most recent 
legal justification, if you would please, for the record.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Garamendi. Also, we heard the chairman in his opening 
remarks say that any authorization to use military force that 
is not unlimited is dead on arrival. Since the chairman is not 
here, perhaps his staff could tell the chairman that, at least, 
this member of this committee would love to see his proposed 
authorization to use military force as broad as he might like 
to do. Bottom line here--this is more for us than for you two 
gentlemen--is the obligation that we have under the 
Constitution to declare war.
    Now, there may be some legal justification in the past that 
could be stretched for this war. I don't think so. So we have 
an obligation here, and we should be about that. We ought not 
wait until the next Congress. You have said, the President has 
said, to conduct a war successfully, we all need to be 
supporting it. We are not at the moment.
    Now, my questions to you two gentlemen have to go with two 
issues that have not yet been discussed. You have mentioned the 
coalition, but you have not specifically mentioned Turkey or 
Iran. Would you please do so. What are they doing? What is 
their role now? And what do you see it in the future?
    Secretary Hagel. Well, Iran is not a member of the 
coalition. As you know, historically, Iran and Iraq have had 
cultural, religious, economic ties. That doesn't stop. It 
hasn't stopped. We are not coordinating with the Government of 
Iran. We are not working with the Government of Iran.
    Mr. Garamendi. Is the Government of Iran involved in any of 
the military activities in Iraq?
    Secretary Hagel. They are not involved in anything that the 
United States or the coalition is involved in.
    Mr. Garamendi. That is not my question. Are they involved 
in any military activities in Iraq?
    Secretary Hagel. As far as I know, the Iranian army is not 
engaged in Iraq. There may be other components, Shi'a militia, 
those kinds of groups that have been there that have--over the 
years, we have dealt with over the years. But as far as an 
official Iranian Government military presence in Iraq, I am not 
aware of any.
    Mr. Garamendi. And now Turkey.
    Secretary Hagel. Turkey, as I noted in my comments, has 
agreed to be one of the training sites for the train and equip 
of the Syrian moderate opposition. They, as you know, worked 
with us opening up the airspace to get in supplies into Kobani 
for the Peshmerga to resupply their forces. They continue to 
work with us on other areas of common interest that are 
important to our efforts there and, of course, their own 
border. They, as you know, are hosting one and a half million 
refugees coming out of Syria.
    So, no. They are part of the coalition, an active part. And 
we continue to work with them on those areas.
    Mr. Forbes. The gentleman's time has expired.
    The gentleman from Texas----
    Mr. Conaway. Thank you.
    Mr. Forbes [continuing]. Mr. Conaway, is recognized for 4 
minutes.
    Mr. Conaway. Thank you, Mr. Chairman. I would like to yield 
my time to Dr. Heck, Chairman of the O&I [Oversight and 
Investigations] committee--subcommittee.
    Mr. Forbes. Dr. Heck is recognized, then, for 4 minutes.
    Dr. Heck. Thank you, Mr. Chairman.
    I thank the gentleman for yielding. Mr. Secretary, General 
Dempsey, thanks for being here today.
    Mr. Secretary, I appreciated your general comments 
regarding GTMO detainees earlier in the hearing. As you know, 
since early June, this committee has undertaken an 
investigation into the circumstances surrounding the transfer 
of the five Taliban detainees from GTMO to Qatar. The committee 
appreciates the Department's cooperation in this very important 
matter.
    In addition to previous requests, the committee recently 
sent two letters to you requesting additional material and 
support. Just ask if the committee will continue to have your 
commitment for the Department's cooperation with the items 
noted in these letters and with other aspects of the 
committee's ongoing work?
    Secretary Hagel. Yes. Of course. And we will continue to 
cooperate as we have been.
    Dr. Heck. Okay. And, Secretary, I am curious as to whether 
or not you are being kept up to date regarding the Qatar 
Government's compliance with the terms of the memorandum of 
understanding [MOU] for the prisoner exchange? And, if so, who 
in the Department is specifically responsible for keeping you 
updated? And are you satisfied with the terms of the MOU being 
met?
    Secretary Hagel. Yes. Every 2 weeks, I receive a report. We 
have a special envoy in the Department that we work with, along 
with the General Counsel's office. I talk with the General 
Counsel every 2 weeks about this. Steve Preston.
    I am continually assured that the Qatari Government is 
fulfilling its commitments that it made to us in exercising the 
operations that they said that they would in order to maintain 
the security of these five individuals. But, yes, every 2 
weeks--sometimes more often than not. But every 2 weeks, I get 
a readout.
    Dr. Heck. I would ask. You know, there has been some report 
in open source media about some of the visitors that the 
detainees have received and whether or not they are having 
access to communication systems that are outside of what is 
permitted through the MOU. Any concerns from us in regards to 
that type of activity?
    Secretary Hagel. I--within the limits of an open hearing 
here, I am aware of those reports. And I--nothing that I have 
seen so far concerns me more than what we are doing now, and it 
is within the boundaries of the assurances that we received 
and--and the agreement that we have from the Qatari Government.
    Dr. Heck. Thank you. And I appreciate the Department's 
continued support as the subcommittee continues its 
investigation.
    Secretary Hagel. And we will.
    Dr. Heck. Thank you.
    I yield back, Mr. Chair.
    Mr. Forbes. The gentleman yields back.
    The gentlelady from California, Ms. Speier, is recognized 
for 4 minutes.
    Ms. Speier. Mr. Chairman, thank you.
    Thank you, Secretary Hagel, General Dempsey, for your 
leadership.
    The Chair early on spoke about Guantanamo detainees joining 
the fight with ISIL. He has repeated that on a number of 
occasions.
    Is there any evidence that detainees from Guantanamo have 
joined the fight with ISIL?
    Secretary Hagel. Not that I am aware of.
    Ms. Speier. General Dempsey?
    General Dempsey. The Secretary, in his comment, referred to 
approximately--of the 89 or so released, that 90 percent of 
them we have clear evidence that there has been no recidivism. 
The other 10 percent are largely unaccounted for.
    ISIL, of course, is a recent manifestation, within about 
the last 9 months. But, if I could, we will take that one for 
the record.
    [The information referred to was not available at the time 
of printing.]
    Ms. Speier. All right. Thank you.
    You know, sometimes I feel like we are in a time warp. As 
we have been sitting here talking about ISIL, CNN has been 
reporting that there is a change in strategy by the 
administration. And it is now going to potentially refocus its 
effort on toppling Assad. So while we are focused here on ISIL, 
it appears that yet another strategy is being undertaken by the 
administration.
    Can either of you respond to that, please?
    Secretary Hagel. Well, I believe the administration has 
addressed that last night and again this morning, as well as 
the State Department, as well as the Defense Department.
    No, there is no change in the strategy. And, again, the 
National Security Council has addressed it. The State 
Department has. We have. So----
    Ms. Speier. Well, let me ask you----
    Secretary Hagel [continuing]. That is all I can tell you. 
There is--there is no change, and there is no different 
direction.
    Ms. Speier. Let me ask you this question, then. Our 
presumption has been that we would train the Free Syrian Army 
and that they would, as trainees, then fight ISIL. There have 
been many reports that suggest that they are not willing to 
fight ISIL. They want to first topple the Assad regime.
    So what confidence do we have that, by training them, they 
are going to be fighting ISIL and not Assad?
    Secretary Hagel. Well, that is the essence of the training 
and the purpose of the training. And this is, also, part of the 
vetting process, a clear understanding of what they would be 
doing.
    But let me get to a more basic point. One of the points 
that I made in my statement as to why moderate Syrian 
opposition would be part of this training effort, and I noted 
that their homes and their families are in jeopardy from ISIL, 
from the brutality and the slaughter and the murder of ISIL. 
That is their first issue. Yes, they want to see Assad go. Yes, 
there is no question. Yes, there are other forces and 
interests, yes.
    But the most absolute immediate threat to most of these 
people is ISIL and what ISIL is doing to their villages and to 
their families and their homes. So it is clearly in their own 
interest. But this is also part of the--the vetting process.
    Ms. Speier. I only have 19 seconds, so maybe you can 
provide this answer in writing. I continue to be concerned 
about how we shut off ISIL's revenue stream, and I want to know 
what we are doing to try and shut down their revenues by 
closing down the oil refineries that they appear to have taken 
control of.
    And I yield back.
    Secretary Hagel. I will do that in the interest of time. 
Thank you.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Forbes. Thank you.
    The Chair recognizes the chairman of the Readiness 
Subcommittee, the gentleman from Virginia, Mr. Wittman, for 4 
minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Hagel and General Dempsey, thank you for joining 
us today and thanks so much for your service.
    Each of our service branches, I think, has a significant 
challenge in front of them.
    Today, there are haves and the have-nots, those units that 
are trained, those units that are not current in training. I 
think a significant challenge for them, it affects not only 
today's mission, but future missions as to what our capability 
might be.
    Each of our service branch chiefs have talked about this 
concept of tiered readiness and what that means for their 
force, the risk it places upon their force, how it affects 
morale and retention.
    And now today, my question to you is: How do we address 
that current situation? And, then, how do we integrate into 
that the challenges that we are now facing in Syria, in Iraq 
with ISIL in accomplishing that mission in addition to missions 
around the world that we want to continue to try to be 
successful at?
    It seems like, to me, that we are a mile wide and an inch 
deep. So I want to get your perspective on that, too. And how 
do we get to a point where we are returning to full-spectrum 
training and making sure that we have a continued full 
complement of readiness across our force structure?
    General Dempsey. Let me take a shot at this, Congressman. 
It is a very, very profound question, meaning intricate.
    But I will say this: You are correct that we are generally 
consuming readiness as soon as it is built. You know, if we 
would have had this hearing 6 months ago, we wouldn't be 
talking about the necessity of reassuring our European allies, 
we wouldn't be talking about ISIL, we wouldn't be talking about 
Ebola, all of which have had a--have pressurized our readiness.
    On the other hand, that is why we exist. I mean, you know, 
to one of the earlier questions, you know, when will this all 
end? You know, personally, I believe that the current state of 
security affairs is about what it will be for about the next 
generation.
    Stated another way, peace is probably not the norm, as you 
look back at history, and it is certainly not the norm today. 
So the military has to respond or--to whether it is a security 
threat or a threat of infectious disease.
    To answer your question, it is why I mentioned in my 
opening remarks that we really need budget certainty, 
flexibility, and time. And I will say, to your question, I 
think that we will need additional funding to account for new 
requirements. I mentioned the three of them that were new just 
over the last 6 months.
    I also think we are going to need to gain your support for 
some of the reforms we have recommended: pay compensation, 
health care, weapons systems, and BRAC [Base Closure and 
Realignment]. Because that will allow us to be more predictable 
and sustainable over time.
    And I think we have absolutely got to get rid of this--this 
horrible shadow of sequestration because it places such a--both 
a physical, but also a psychological shadow over the defense 
budget that it has very bad, long-term effects.
    Mr. Wittman. Thank you.
    Gentlemen, let me ask this question. Specifically, today, 
as we speak, if sequester comes back in 2015 and we have the 
reduction in OCO funding that is projected to go from $60 
billion to $30 billion, give me a one-sentence assessment of 
where you believe our military will be.
    General Dempsey. We will be less ready than at any time in 
my 40-year career.
    Mr. Wittman. Okay.
    Secretary Hagel.
    Secretary Hagel. Well, I haven't had a 40-year career in 
the military. But I would completely agree with the Chairman, 
and I have been on the record on this point. It will put the 
military and our national security enterprise in a very, very 
deep hole.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Palazzo [presiding]. The Chair now recognizes Mrs. 
Davis from California.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you both for your leadership, Secretary Hagel, 
and Chairman Dempsey.
    I wanted to ask about the level of expertise that would 
give us confidence in the troops that we are training right now 
in order to pull out of our activity. And I know that we are 
not talking about boots on the ground here, but in an advisory 
capacity. Because I think Americans are well aware of the fact 
that, in order for us to do our job, we need highly trained 
professionals like our SEALs [Sea, Air, Land teams], like our 
special operations.
    And I would like to know whether we are in any position to 
see that level of expertise and really hair-triggered 
preparedness that is required of SEALs and of those who go into 
special operations like that. I would have to believe that the 
possibility of something occurring that would require that kind 
of professionalism is something that we must be planning for. 
And how do we respond to people that are wondering if they are 
having that level of expertise.
    Which wouldn't require only consulting, but clearly boots 
on the ground and, again, whether or not there are those who 
would be on the ground who could order air strikes effectively 
in order to make that happen.
    General Dempsey. Well, Congresswoman, I can absolutely 
assure you I would never come to the Secretary of Defense and 
suggest that he send anyone into any mission unless they are, 
in our judgment, the Joint Chiefs, the best trained, best led, 
best equipped force on the planet. And so we--there is no 
shortage of skills and expertise whether it is in the 
conventional forces or the special operation forces. And by the 
way----
    Mrs. Davis. I am talking about our Iraqi partners or the 
Syrians as well.
    General Dempsey. Well, what--of course, the--there is 
always a gap between our level of expertise and theirs that we 
try to close to the extent we can.
    I guess maybe the only thing I am suggesting, it is 
conventional. It is special operating forces. It is air, sea, 
and ground. And, you know, we kind of gloss over--not you--but 
we tend to focus on what are we doing on the ground. But we 
have been flying, for 8 weeks now, a very--an extraordinary air 
campaign. And those young men and women are executing that, 
frankly, exceeding expectations in my view.
    So I am not sure how to address your question about the 
expertise issue. If you could elaborate a bit more, I would--I 
will give it a shot.
    Mrs. Davis. Yeah. Thank you.
    Is there a metric? Do we need to have a certain level of 
expertise and a quantity of those who were trained?
    General Dempsey. On their part? On the part of the----
    Mrs. Davis. On their part.
    General Dempsey. Yes. Absolutely.
    Mrs. Davis. Do we know that our--our team will not be 
required to go in----
    General Dempsey. Yes.
    Mrs. Davis [continuing]. That kind of an operation.
    General Dempsey. Yeah, and I will give you this briefly. So 
there is--the Iraqi security forces have an organization called 
the CTS, Counter-Terrorism Service. They are absolutely 
capable. In fact, if anything, they have been overused because 
they are the best of the Iraqi security forces.
    So what we are trying to do with them is reconstitute them. 
They are also very well led, by the way, which means they have 
both capability and leadership.
    On the other side of it, we believe we need three capable 
divisions. A division is roughly 9 brigades, which is to say we 
are going to need about 80,000 competent Iraqi security forces 
to recapture the territory lost and, eventually the city of 
Mosul, to restore the border.
    And we are on path to conduct that training. It is why we 
are setting up these training centers in the locations the 
Secretary mentioned.
    Mrs. Davis. So we didn't necessarily see a lack of response 
on their part in the latest--when we were looking at the Iraqi 
forces and they basically----
    General Dempsey. When we did our assessment?
    Mrs. Davis. When we did the assessment, but just in terms 
of what happened.
    General Dempsey. Oh, what happened when they collapsed?
    Mrs. Davis. Yeah.
    General Dempsey. Two divisions and a few more brigades 
collapsed in northern Iraq. They collapsed because of corrupt 
leadership.
    There was a period of time just a couple of years ago when 
a man could purchase his command of an Iraqi division. That was 
a terrible outcome, as we saw, for Iraq in general.
    Anyway, they collapsed because of poor leadership, no 
confidence in the central government, and a kind of mythology 
that it built up around ISIL that it was unstoppable. ISIL has 
now been stopped.
    Some of the forces that have--that abandoned their post 
have been reintegrated into the military, which is a very 
positive sign, I think. And the assessment that we have been 
making suggests that we can recover from the shortcomings they 
exhibited. So--but that is all part of this campaign.
    Mrs. Davis. Okay. Thank you, both of you.
    Mr. Palazzo. The Chair now recognizes Mr. Hunter from 
California.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    I guess, the--the first question I have I am going to lead 
with a quote from you, Secretary Hagel: ``I disagreed with 
President Obama, his decision to surge in Afghanistan, as I did 
with President Bush on the surge in Iraq. It wasn't a matter if 
we could win at the moment. Of course, no force in the world 
can stand with the sophisticated power of the American 
military. Nobody could stay on the field with you, but that is 
not the issue. That never was the question. The question is, 
then, what happens next? Where is this going? What is the end 
game?''
    So where is this going? What is next? And what is the 
endgame? The Iranians are training more Iraqis than we are. 
They are getting more influence in Iraq right now. You have no 
plan for Syria. You don't know what you are going to do with 
Assad. You don't really want to take him out because you don't 
know who is going to take his place.
    And both of you right now work for an administration that 
had Iraq finished, completed, and handed to it on a silver 
platter. And you talk about the long view, General. The long 
view would have been we wouldn't be here right now if we had 
stayed in Iraq in the first place. And we are talking about 
this like we weren't there for 10 years and that this 
administration didn't give it up.
    I don't get it. I am completely confounded and, frankly, I 
guess I would question the administration's credibility on this 
and their ability to even do anything, based on the fact that 
you didn't see this coming, you didn't react quick enough, you 
got in way late in the game, and we literally wouldn't be where 
we are right now if the administration had made the right 
decisions in the first place.
    Do we even have a status of forces agreement now with Iraq? 
Do we have a status of forces agreement now with Iraq?
    Secretary Hagel. Well, we have a diplomatic note.
    Mr. Hunter. So we don't even have a status of forces 
agreement now, which was the reason we left in the first place, 
is because we lacked that?
    Secretary Hagel. We have privileges and immunities that we 
believe satisfy our requirements to protect our troops.
    Congressman, I will respond to some of your points.
    Mr. Hunter. Secretary, let me give you one of your quotes, 
if I could too: ``The plan to revive the Iraq war by sending a 
surge of 30,000 troops''--obviously this was then--``is the 
most dangerous foreign policy blunder in this country since 
Vietnam. If it is carried out, I will resist it.''
    You were adamantly against and consistently against the 
Iraq war as a Senator, and now you are basically the second-
highest ranking military officer in a civilian capacity in the 
country in charge now of leading our forces in a strategy in 
Iraq again. I am really confounded on how the American people 
are looking at our team right now, at your team, and saying, 
how do we do this? You are now in charge of what we lost 
because of decisions made outright and forthright by the 
administration.
    Secretary Hagel. Well, let me see if I can pull some of 
this apart. My past record and statements stand, and that was a 
situation that is different from today. I can't go back and 
replay 2011 or 2012 or why did the United States leave or not 
leave. We will let history decide that.
    Mr. Hunter. But we didn't leave, because we are there now, 
right?
    Secretary Hagel. Well, we never left. We have the largest 
diplomatic compound in the world. Our embassy there is the 
largest in the world. So we have never left. But regardless, we 
are where we are. My responsibility today, Congressman, is not 
back in 2007 or 2002 or 2003. I have a new responsibility, new 
set of threats and challenges, new dynamics. That is what I am 
dealing with
    Now, I said earlier this morning, sustainability. We had 
150,000 troops in Iraq. Yes, we are the most powerful military 
in the world, but we are trying to build and help the Iraqis 
build--not us, them, it is their country, their interest--a 
sustainable----
    Mr. Hunter. I was there.
    Secretary Hagel. I know, and we appreciate your service. A 
sustainable government force where they can protect themselves, 
they can support themselves, they can do all the things that 
sovereign governments must do.
    Mr. Hunter. Right.
    I am out of time, Mr. Chairman.
    Secretary Hagel. My role today is the threat that ISIL 
poses against the Government of Iraq, against us, and against 
our allies. That is my threat responsibility today.
    Mr. Palazzo. The gentleman's time has expired.
    The Chair now recognizes Ms. Gabbard for 4 minutes.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    As both of you walked through your testimony, I couldn't 
help but think that it does sound very familiar to other 
testimonies we have heard in the past about training and arming 
Iraqi security forces, of training and arming a local security 
force, now called a national guard. And overall, I am wondering 
how we can be walking down this same path that we have walked 
down over the last decade or more and hope for a different 
outcome.
    You have outlined your intentions to train and arm 12 Iraqi 
security forces, brigades, to include arming them with Hellfire 
missiles, and I have got a few questions with regards to that. 
How many Kurdish Peshmerga brigades will you be training, and 
will you be arming them directly and not funneling those 
weapons through the central Iraqi Government as we have seen, 
very recently, has been very resistant to passing on any of 
those weapons or arms, ammunition that we have provided through 
that central government.
    Secretary Hagel. Well, I will take a couple of the specific 
questions you asked. One, I noted the 12 brigades that we will 
be training. You asked how many of those are Peshmerga. Three 
of those 12 brigades are Peshmerga brigades. You ask about the 
request that the Peshmerga has made for armaments and for the 
materiel. That is all being funneled through the Iraqi 
Government.
    Ms. Gabbard. How can you be assured that they are getting 
any of that? Because publicly their ministers of defense and 
others are saying that they are not receiving those arms.
    Secretary Hagel. They are being given the armaments. All of 
the requests are ongoing. So just as I said in any statement, 
all of the requests from the Iraqi security forces aren't there 
yet. As I said in my statement, a good deal of this is still 
coming. I mean, you just don't produce large inventories of 
armaments in weeks or in a month. All of that is being worked 
through the Iraqi security force, through the Iraqi Government.
    And I also noted, by the way, in my statement, 
Congresswoman, there were very specific amounts, significant 
amounts of armaments given directly to the Peshmerga from 
coalition partners over the last few months.
    Ms. Gabbard. So up until this date, as well as with the 
funding request that you will have before Congress, none of 
those arms will be provided directly to the Kurds and the 
Peshmerga from the U.S. Government?
    Secretary Hagel. The Kurds' request will be worked through 
the Iraqi Government.
    Ms. Gabbard. Has the Iraqi Government stated publicly that 
they will provide those arms to the Kurds?
    Secretary Hagel. Well, that is an Iraqi Government issue. I 
can't sit here and----
    Ms. Gabbard. But they have stated publicly that they will 
not in the past.
    Secretary Hagel. It is clear that the Iraqi security forces 
want a strong and viable and armed and trained Peshmerga. It is 
in the interest of the country of Iraq. So whether the 
Peshmerga is given every item on that list--and by the way, I 
have seen some of the list, their pretty spectacular list.
    Ms. Gabbard. Well, understandably, but they are also the 
trusted fighting force on the ground that has been most 
effective against fighting ISIS----
    Secretary Hagel. We appreciate that.
    Ms. Gabbard [continuing]. And with very limited resources.
    I guess my last question--we are running out of time here--
is how can we have the confidence that this Iraqi security 
forces at this early stage of this government will not end up 
with the same outcome of units deserting and leaving weapons in 
the hands of ISIS?
    Secretary Hagel. Well, again, I think we have covered some 
of these questions before this morning, but I will say, first, 
there is risk in everything, there is no guarantee of anything. 
But we believe what we are doing now to help rebuild the Iraqi 
security forces, as the Abadi government is changing their 
leadership, so it will instill, we believe, a new level of 
trust and confidence and support in Sunni forces and the Sunni 
tribes. I noted an example over the weekend of 2,000 Sunni 
tribesmen in a ceremony this weekend preparing to go into the 
Iraqi security forces being sworn in. All those different 
things we are doing now we believe can lead to the kind of 
strong Iraqi security forces that will be required to take back 
their country, but also that must reside within an inclusive, 
unity, strong participatory government in Iraq.
    Mr. Palazzo. The gentlelady's time has expired.
    The Chair now recognizes Mr. Franks for 4 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Secretary, let me begin by saying that I think you have 
very accurately described ISIS. I think that your description 
there is well considered and very accurate, and I appreciate 
it. You have kind of told it like it was.
    I remember that George Bush said almost verbatim: If we 
leave Iraq before our commanders say that we are ready we will 
be risking the future of Iraq. We will see mass killings on a 
horrific scale, and we will be increasing the chances of 
American troops having to return and face an even more 
dangerous enemy.
    And I have to say to you, Mr. Secretary, in all due respect 
to you, I think that this President owes Mr. Bush, Mr. Hunter, 
and thousands like him an apology for standing by as ISIS 
entered Iraq and essentially made this Bush prediction come 
almost precisely true. And the concern I have, of course, is 
that I am afraid that it is the same ideology or the same 
approach is being borne out in other fronts.
    As dangerous as ISIS is, as again you have so accurately 
described, the greater danger is if some of the core elements 
of that insidious ideology, which is in some of the leadership 
of Iran right now, gets their finger on the nuclear button. And 
this President seems equally oblivious to that as he has been 
to ISIS entering Iraq. And my concern is that their latest 
funding request includes a significant portion that would go to 
ISF that we will be fighting along beside Quds and Iranian 
Shi'a militia, and that has a way of elevating Iran's 
credibility or increasing their credibility to some extent, and 
I think increasing the chances and hastening the day when they 
will gain access to nuclear weapons, and this administration 
seems oblivious to all of that.
    And I know that this is a contentious issue, but do you 
think that we are doing enough to prevent Iran from gaining 
nuclear weapons?
    Secretary Hagel. Congressman, I am going to answer that, 
but also let me lead into that answer by the first comments and 
questions you ask about whether we are oblivious to the ISIS 
threat.
    Mr. Franks. Certainly the President was. We wrote. 
Certainly he did nothing to stop them. A very small force could 
have prevented them from coming in, very small force, and it 
could have prevented them from gaining the base of operation 
that they have gained. We wrote letters. They were ignored. 
This is for over a period of months.
    Secretary Hagel. Yeah. Let me just remind all of us that, 
first of all, our Defense National Intelligence Agency earlier 
this year had noted the threat of ISIS, specifically ISIL. We 
were all aware of it. We were talking to the Iraqi Government 
about it. This was the government of Prime Minister Malaki.
    Now, let's also remember Iraq is a sovereign nation. We 
have to be invited into Iraq to help. We were telling Prime 
Minister Malaki he had a problem he was going to have to deal 
with. We couldn't have just arbitrarily--I suppose we could 
have--invaded Iraq without the sovereign country and the 
elected Government of Iraq inviting us in. We were not. We were 
not asked to help, even though we were talking to the Iraqi 
Government. So I think it is important we just set the stage.
    This also was at the time, if you recall, Congressman, Iraq 
was at the front end of changing governments. And a new 
government didn't take over, if you recall, until September of 
this year. But even then, we were invited in, in late summer, 
and we did get involved in it in late summer, but we had to be 
invited in. And so that is first.
    On Iran, this administration is very aware of the dangers 
of Iran, and the President has said again that his policy is 
the same as President Bush's policy that Iran----
    Mr. Franks. It is not the same as President Bush's policy, 
but continue.
    Secretary Hagel. On Iran, it is, that Iran will not, cannot 
have a nuclear weapon. That hasn't changed.
    Mr. Franks. In all due respect, the Bush policy was in 
keeping with the U.N. [United Nations] Security Council, which 
was we would dismantle and make sure that they didn't have the 
ability to enrich uranium or produce plutonium. And this 
administration has written an agreement that allows that 
protocol to be a protected policy.
    Secretary Hagel. That is what this administration has been 
doing, working with IAEA [International Atomic Energy Agency]. 
What the talks are about, as you know, Congressman, which we 
may see something come out of it, we may not, the P5+1 [United 
States, Russia, China, United Kingdom, France, and Germany], 
through the United Nations, the five members of the Security 
Council of the United Nations plus Germany in those talks is to 
dismantle, is to do all the things that we want to do to move 
Iran away from the capacity, capability of building a nuclear 
weapon. This Department has the responsibility to continue to 
provide the President with all the options on the table. We 
have and we will.
    Mr. Palazzo. The gentleman's time has expired.
    Mr. Franks. Thank you, Mr. Chairman.
    Mr. Palazzo. The Chair now recognizes Mr. Johnson from 
Georgia for 4 minutes.
    Mr. Johnson. Thank you. I am prompted to ask you, Secretary 
Hagel, to set the record straight as to what factors led the 
U.S. to withdraw all of its troops from Iraq because of the 
inability to attain a status of forces agreement. Can you 
remind us of what major factor precipitated our inability to 
enter into an agreement with the Iraqis?
    Secretary Hagel. Well, without going into the long history, 
and I think everybody recalls it, I was not in this job at the 
time, but the United States could not get the assurances that 
it required, that it always requires when we have troops in a 
country, assurances to protect our troops. That is normally 
done through a status of forces agreement, but in the case of 
Iraq now we have privileges and immunities. But the fact is we 
were not invited to stay. Malaki had said that he couldn't get 
it through the parliament.
    Mr. Johnson. That is the point that I want to make. Thank 
you.
    I also would like for you to explain what interests the 
U.S. and Iran have jointly with respect to this ISIL issue? 
What are some of the things that we have joint interest about?
    Secretary Hagel. ISIL, as it has demonstrated through its 
indiscriminate brutality of killing all groups and sectors of 
people, Sunni, Shi'a, Kurds, minorities, Christians, that ISIL 
is a threat to Iran. It is a threat to the entire region. It is 
a threat, as we have said all morning, a clear threat to Iraq 
because it now controls large swaths of the country of Iraq. 
But at the same time, we, the United States, are not 
coordinating with Iran. We are not working with Iran.
    Mr. Johnson. Are there any areas where the U.S. and Iran 
can cooperate with respect to this ISIL threat?
    Secretary Hagel. Well, each sovereign country in the Middle 
East must protect its own interests, as Iran certainly is 
doing, will do, as Iraq is doing, as Jordan is doing, Turkey is 
doing, but that is an independent effort that the----
    Mr. Johnson. Are there any areas where we can have joint 
concerns?
    Secretary Hagel. Well, we have joint concerns, but not 
joint cooperation.
    Mr. Johnson. Do you see joint cooperation being a 
possibility?
    Secretary Hagel. Well, that is not our policy, and it may 
some day be possible.
    Mr. Johnson. It wouldn't be a bad thing, would it?
    Secretary Hagel. Well, I am all for cooperation and getting 
along in the world in peace, but the realities of the fact that 
Iran is a state sponsor of terror, they have continued on a 
path of trying to nuclearize weapons and make those efforts, so 
it is hard to be unmindful of that.
    Mr. Johnson. It is good to be mindful that dialogue can 
help to create better conditions also. But let me ask you this 
about Mr. Baghdadi. Is he alive? Is he injured? Was he involved 
in the situation that occurred, the air strike that occurred 
last weekend?
    Secretary Hagel. Well, those are areas that we probably 
should get into in a classified hearing.
    Mr. Johnson. All right. Thank you, sir.
    Secretary Hagel. Thank you.
    The Chairman [presiding]. We will have a classified follow-
up next week.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    General Dempsey, what is the current strength of ISIL? We 
have heard reports, 30,000. I have heard reports of 50,000. Can 
you clue us in as to what that current strength is?
    General Dempsey. The Intel Community does put kind of a 
band around it. At one point, 21,000 to 31,000. Frankly, I 
think that includes groups that they may have scooped up along 
the way, former Baathists, for example. So I would suggest to 
you that the core group of ideological ISIL, probably about 
two-thirds of them are in Syria, about a third of them in Iraq, 
and in total it is probably 15,000 to 18,000.
    Dr. Fleming. 15,000 to 18,000 core, but then maybe another 
20,000 or so that may be cooperative with, fight alongside is, 
I think, what you are saying, 30,000 to----
    General Dempsey. I think that is where the number 31,000 
comes from, the affiliates, if you will.
    Dr. Fleming. Now, I get your strategy in Iraq, which is to 
go back and undo the things that went wrong in Iraq. We have 
got better leadership. Certainly we are helping them stand up 
their military so they can go on the offensive. Eventually 
restoring the border. But I think we can assume that most of 
those ISIL members will end up in Syria if we move them out of 
Iraq.
    So what about the Syrian piece, the Free Syrian Army, how 
long will it take and how many strong will we be at when they 
become an effective force?
    General Dempsey. I think we have testified previously that 
in the first year we think we can produce about 5,400, that we 
think the total required in order to put enough pressure on the 
ISIL forces in eastern and northern Syria would probably need 
to number about 15,000.
    Dr. Fleming. 15,000. So would that be an offensive force 
where they could actually march into Syria and actually attack, 
take out, degrade, destroy?
    General Dempsey. No, let me describe it this way. It will 
be a force large enough to defend initially so that it can 
actually hold territory that heretofore is more fluid, and then 
it should have the capability over time to become offensive.
    Dr. Fleming. And at what point do we get to 15,000, at what 
point, I am talking timeline here, do we get to an offensive 
force?
    General Dempsey. Those details are actually part of what is 
happening at CENTCOM this week. There is about a 30-nation, 
190-planner contingent down there that is talking about ISIL 
both as it exists in Iraq and in Syria. And so the question is, 
where along the way will there be enough of a critical mass to 
employ it, and that is a conversation that is ongoing right 
now.
    Dr. Fleming. Okay. Will we be able to get more details 
tomorrow?
    General Dempsey. Sure. I don't know about tomorrow, but you 
will be able to get more details, yes, sir.
    Dr. Fleming. Okay. Thank you. I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thanks for being here. I know you have got a lot 
on your plate with budgets and other things and big decisions 
on our national security, the different things that are going 
on in the world, and I certainly respect you, and I will try to 
be brief about this.
    Secretary Kerry was before this committee. I believe the 
two of you were with him a couple of months ago when he was 
asking for the ability to move into Syria, and I asked 
Secretary Kerry at that point what were the principles of war 
under which the Obama administration operated. He could not 
give them to us. He promised to get them to us within 24 hours. 
He has not responded, nor has his staff responded in any way 
when we have again asked for those principles.
    But I quoted at that point Colin Powell's doctrine. Is 
there a plausible exit strategy? Do we have a clear obtainable 
objective? And then I go and I look, you know, again at where 
Colin Powell has expanded on that, and when a nation is 
engaging in war, every resource and tool should be used to 
achieve decisive force against the enemy, minimizing U.S. 
casualties, and ending the conflict quickly by forcing the 
weaker force to capitulate.
    Why should we approve an authorization that doesn't give 
you, General Dempsey, and you, Secretary Hagel, the ability to 
do what it takes to win the war?
    General Dempsey. Congressman, that is a great question, and 
you are obviously a student of warfare. Let me answer it this 
way. The use of the military instrument in state-on-state 
conflicts does comport better to General Powell's principles 
than the use of military instrument against something like 
ISIL. And so as we have looked at mass, which is one of the 
principles of war, as we looked at mass, mass has a coherence 
and a quality all its own when it is applied against the mass 
of another force, notably a state. But when you are applying 
mass against something like ISIL, you can have a particular 
kinetic effect against it, but you can also generate antibodies 
within the population that could actually be counterproductive 
to what you are trying to achieve.
    I would like to unpack this a bit in a longer conversation 
with you or a paper, but I will tell you this. In terms of what 
we are doing in Iraq and what we are doing in Syria, I referred 
to a command sergeant major that I had as a young lieutenant 
colonel, and I was trying to figure out, of these five or six 
or seven things that we really had to get done, how would I 
possibly prioritize them. And he said to me simply--his name 
was named Don Stockton, he has passed away since--he said, 
look, Colonel, just make sure that you keep the main thing the 
main thing.
    And so ISIL is the main thing, and our priority is in Iraq, 
and then we will figure out, while disrupting it in Syria, what 
to do about it in Syria.
    Mr. Scott. General, I am certainly not a student of war, 
but I have a tremendous amount of respect for both of you. I 
guess my problem with this administration, as respectfully as I 
know how to say this, I believe that the indecisiveness at the 
White House has led to a lot of the problems and the challenges 
that we are facing today. And when we first saw ISIL, we knew 
that no good was going to come from that.
    And the indecisiveness is what bothers me. I don't feel 
like you have that indecisiveness. I feel like it is the 
President of the United States' indecisiveness that, quite 
honestly, puts our men and women in uniform and our American 
citizens at risk because he is not willing to make the decision 
to turn it over to somebody who will go do what it takes to 
protect this country.
    And so I respect you, and I would love to have one that 
just gave you the authority to do what our military leaders 
think it takes to protect Americans.
    The Chairman. Thank you. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    General Dempsey, Secretary, thank you all for being here. 
Happy Veterans Day. Happy Veterans Day to the veterans behind 
you. Happy birthday, Marine. There is cake downstairs if you 
haven't had enough. Very important topic. Thank you all for 
being here.
    Previous hearings, we have discussed how ISIS is self-
financing and how that is kind of unique compared to some other 
Islamic extremist organizations in Syria and other places. They 
are self-financing through smuggling, extortion, murder, you 
name it, I mean, these are bad people. I think, General 
Dempsey, you mentioned some of the things that we are doing. 
Have we been able to truly disrupt their financing source that 
will lead us to helping, I guess, break up their logistics?
    General Dempsey. We have certainly disrupted it. There are 
some things that I would be more willing to share with you in a 
classified setting where we have reflections of the impact of 
some of the things we have done against their oil revenue, for 
example. But again, some of that is probably best described in 
a classified setting.
    Mr. Palazzo. Okay.
    General Dempsey. But I will tell you, the answer is, yes, 
we have significantly disrupted their financial support.
    Mr. Palazzo. Because, after all, if we can dry up the 
ability to buy beans, bullets, and Band-Aids, I mean, hopefully 
another way to break their will to fight.
    Secretary Hagel. Congressman, I would just add to that a 
couple of points we made this morning on this. It is your 
point, question, observation is part of the comprehensive 
effort that we are using to stop them, and it isn't just force. 
Yes, that is a big part of it, but all the other pieces. And 
just as you said, you don't cut off that funding source, they 
will keep coming. And so it is a priority piece of the overall 
strategy, and we are making progress.
    Mr. Palazzo. Earlier, the status of forces agreement was 
brought up, and it was said that we have more of a diplomatic 
note, and you all said you feel like that is enough to protect 
our men and women in uniform from any form of prosecution in 
Iraq, which led me to believe, usually when there is a military 
force there is a civilian contractor force. Is there currently 
a civilian contractor force providing LOGCAP-type [Logistics 
Civil Augmentation Program] services to our men and women in 
uniform, and what kind of protections do they have, and how 
many do you think may be over there?
    General Dempsey. We intentionally have approached this 
mission in an expeditionary way, so we are not dragging in a 
big LOGCAP to provide life support for our forces. We are 
dealing with it as a military.
    Now, that said, as you know, there is an Office of Security 
Cooperation in Iraq that deals with the FMS [foreign military 
sales] case. It is the part that the Secretary referred to as 
the part that never left Iraq, where these 200 military men and 
women who are helping procure weapon systems and then provide 
them to the Iraqis over time. That is supported by a contract, 
whether it is with a particular weapon system dealer or in some 
cases trainers, and they have, as part of the contract, they 
have protections and immunities under the contract.
    Mr. Palazzo. Okay.
    Secretary Hagel, I think this week you were quoted as 
saying--you were actually at a Veterans Day speech at the 
Vietnam War Memorial, and you publicly stated, we must openly 
acknowledge past mistakes and learn from them because that is 
how we avoid repeating them. I would have to agree with you. I 
mean, Congress, I think, has been honest and saying that 
sequestration and placing those devastating defense cuts on top 
of our men and women in uniform was a mistake. There is a huge 
appetite to, you know, remove those defense caps.
    But also I think a lot of people look at this 
administration and see that they made some mistakes in how we 
have handled ISIL, how we have handled Iraq, the 2011 
withdrawal. And I hope that through your comments alone, that 
this administration and others will be honest and not glossing 
over the past, but looking at it honestly so we can avoid 
making these mistakes, because our men and women in uniform, 
their lives depend on it. So thank you all.
    The Chairman. Thank you. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I really want to thank both of you for your service to 
the country. Belated happy Veterans Day to you. You both 
deserve our congratulations and our respect.
    You are responsible for the lives of our service men and 
women, and I appreciate both of your positions. And Secretary 
Hagel, I appreciate your past comments in regards to putting 
our sons and daughters at risk. I have three sons that are 
currently serving, and so that hits a point for myself and my 
wife.
    But as we move forward, and two of my sons were in the 
drawdown in Iraq in 2011, I just wonder, and I know you weren't 
responsible because you weren't in that position as it relates 
to the status of forces agreement, but also an enduring 
presence in Iraq, do you think, as we move forward, as this 
starts to--and you mentioned it is going to take years--but 
shouldn't we have a status of forces agreement? Would that be 
preferable as we move forward that we have an enduring presence 
in Iraq instead of walking away like we did? And then because 
it is so unstable there, who knows what it looks like again 
after we stabilize it, would it be a good idea that we have a 
status of forces agreement that allows us to have an enduring 
presence there?
    Secretary Hagel. Well, Congressman, first, thank you for 
your sons' contributions and service and for your family's 
sacrifice and service.
    As to your question, I think good question, and it is 
something we are thinking through, but these are the kinds of 
things you continually think through, but they evolve. What 
that place looks like, what the world looks like in 6 months, I 
can't predict. I can do what I can do now with knowing what I 
know now, anticipating.
    Mr. Nugent. I think we have talked about strategically 
looking forward. I mean, that should be part of our strategic 
plan.
    Secretary Hagel. Well, it always is, but, again, we are not 
intending to stay there in an indefinite way in the same 
capacity that we are now at the invitation of the Iraqi 
Government to come back in to help them, training and equipping 
and so on. I mean, that is not an indefinite mission. And our 
air strikes, that is not indefinite.
    So we think through what we need now and what the coalition 
requires, and then what we are going to need as we go along. 
And we get wiser as we go, too. So you adjust. You have to 
adjust.
    Mr. Nugent. Okay. And I understand. You know, I am not 
trying to--I guess I am trying to pin you down.
    Would you recommend to the President at some point in time, 
and I know things change, would it be in our best interest to 
have a status of forces agreement with Iraq and have an 
enduring presence of some type within Iraq?
    Secretary Hagel. Well, what I have recommended to the 
President, what General Dempsey has recommended and our 
leaders, first, protection of our forces. That is it. Whether 
you call it a status of forces agreement or whatever it is, 
whatever the piece of paper or document, it has to mean 
something. The privileges immunity document that we have now, 
the diplomatic note, our commanders--I--feel that it is 
adequate to protect our forces and what we need now.
    Now, into the future, we adjust, we have to adjust, and we 
may want something different. We are looking at this. We will 
continue to look at it. But right now what we have now is 
essential and it is adequate for what we require to protect our 
troops.
    Mr. Nugent. General.
    General Dempsey. I was the Chief of Staff of the Army at 
that time. The reason that we believed the status of forces 
agreement was the right instrument to achieve, to seek to 
achieve, was the scale, the size of the residual force, which 
was going to be approximately 10,000.
    Secondly, the nation of Iraq was a stable platform. There 
was no ongoing conflict within its borders. And so we thought 
that requiring a status of forces agreement from a responsible 
government as an expression of a shared commitment was the 
appropriate instrument. We couldn't get it.
    The difference? We reentered Iraq in an extremis situation 
with a brand new government that actually hadn't even named all 
of its ministers, and so we accepted the diplomatic note as 
adequate to the task because of the scale and also because we 
don't have these men and women traveling all over Iraq. At some 
point in the future, as the Secretary says, when this platform 
is more stable, I think----
    Mr. Nugent. I would think that because it was important to 
have an enduring force back in 2011 when talks broke down, I 
would think that would remain the same today and maybe even 
be--the reason to have that is what we are facing today in Iraq 
with ISIL, just as observation.
    General Dempsey. Yeah. Maybe.
    Mr. Nugent. Thank you, sir, and I thank both of you.
    The Chairman. That concludes our questions from the members 
of the committee. I want to thank you again both for your 
service for being here and--boy, oh boy. You just made it. Mr. 
Bridenstine.
    General Dempsey. Only if it is an easy one, Congressman.
    Mr. Bridenstine. Well, I appreciate that, Mr. Chairman. I 
am down to 4 minutes now? Okay.
    Mr. Nugent. Three.
    Mr. Bridenstine. Three minutes.
    Well, first of all, thank you guys both for being here, Mr. 
Secretary and Mr. Chairman. Our country is facing a major 
challenge in the Middle East, and I am sometimes deeply 
troubled by the way things are going. And today we are here to 
talk about a $5.6 billion ask, and it seems as though we are in 
the middle of replanning or changing our strategy, changing our 
tactics. There are 30 nations that are meeting to talk about 
the next steps.
    It seems to me that we are actually in a position where we 
are getting ready to allocate $5.6 billion and not fully 
understanding ultimately what our approach is going to be. 
Could you guys each take a few seconds and respond to that so 
that I can go back to my constituents and say we are not just 
giving $5.6 billion but we are actually taking a serious 
approach at this?
    Secretary Hagel. Congressman, thank you. It is a pretty 
important and basic question, so I get it.
    I tried to lay at least the general parameters of that out, 
that question in my statement as to the general breakdown of 
where would it be used, why, and why we think it is important. 
Also, the dimension that you mentioned and others had this 
morning, well, what are others doing, what are the other 
coalition partners doing. And as you just noted, one of the 
reasons that General Austin has over 30 of our coalition 
partners in Florida this week is working through where their 
contributions specific, money, planes, people, logistics, so 
on, are going to come from. And you know we have conditioned in 
our request, actually the Congress does this, that we can only 
draw down so much of that train-and-equip part, the $1.6 
million, until others have put their money in.
    But the specifics of how all that is broken down, the 
timeframe, I mean, we have all that, and we would, in briefings 
that we will start, and we have generally started, we will 
continue to have with staff and explaining why we have asked 
for this much money, we are prepared to do that.
    General Dempsey. I would like to take about 30 seconds and 
swing at this myself because you asked what are we doing. Well, 
we have a counter-ISIL strategy. It is not an Iraq strategy. It 
is not a Syria strategy. It is a counter-ISIL strategy.
    Secondly, the strategy is built around what I think is a 
remarkable coalition. If you look at the countries in that 
coalition, and if you had told me a year ago you could draw 
these countries into that coalition, I would have said probably 
not. So the coalition is on board. And the campaign is built 
around the principle of by, with, and through allies, to 
include the Iraqis, the Peshmerga, and eventually a moderate 
Syrian opposition, so that we don't own this problem, we enable 
it.
    Mr. Bridenstine. One last question with my 41 seconds. I 
have got a study here from the Center for Strategic and 
Budgetary Assessments, and they make a case that when you look 
at the seriousness of the campaign regarding air strikes, they 
make the case that in Kosovo we were doing 86 air strikes a 
day, which was another campaign where there were no troops on 
the ground, and in this campaign we are doing 7 air strikes per 
day. Can you guys shed any light on what the discrepancy there 
is?
    General Dempsey. Sure. Very different enemy. It is not a 
nation-state. It is a terrorist organization. They have adapted 
their tactics to our strengths. And so they are just not 
sitting around waiting to be bombed, frankly, in a way that a 
traditional military might have to because you can't hide it. 
These are individuals in pickup trucks that can hide in and 
among the population.
    Actually, we ought to be taking credit for this, not being 
criticized for it, because we are being so precise and 
deliberate, limiting civilian casualties in order to disrupt 
but not create additional problems for the coalition.
    Mr. Bridenstine. Might it be a challenge with gathering 
intelligence?
    General Dempsey. Well, I mean, look, any military leader 
worth his salt would always say, oh, I need more intelligence. 
Of course, intelligence is a challenge, but we have got our 
assets focused like a laser beam on learning more about this 
enemy.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    The Chairman. Will the audience please remain seated while 
the Secretary and General leave and their party? Thank you.
    Thank you. The hearing is now adjourned.
    [Whereupon, at 12:54 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                           November 13, 2014

=======================================================================

    

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 13, 2014

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
     
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           November 13, 2014

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. JONES

    Secretary Hagel. As the President articulated on September 10, 
2014, the objective of the counter-ISIL campaign is to ``degrade, and 
ultimately defeat, ISIL through a comprehensive and sustained counter 
terrorism strategy so that it's no longer a threat to Iraq, the region, 
the United States, and our partners.''   [See page 17.]
    General Dempsey. The goal of our strategy is to defeat the Islamic 
State of Iraq and the Levant (ISIL): to halt its progress, destroy it 
as an organization, and help local forces liberate the territories it 
now controls. Our effort seeks to degrade, dismantle, and ultimately 
defeat ISIL so that it no longer threatens the region and the national 
security of the U.S. and our allies. It ends when the Sunni population 
rejects it. The U.S. military line of effort will enable that to occur, 
but the military cannot do it alone.   [See page 17.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER
    Secretary Hagel. The U.S. Government is working to target the 
Islamic State of Iraq and the Levant's (ISIL) revenue across multiple 
lines of interagency effort. According to the Department of the 
Treasury, until recently, ISIL was earning several million dollars per 
month through diverse efforts, including oil sales, ransom payments, 
extortion and crime, and support from foreign donations. Coalition 
airstrikes are impeding ISIL's freedom of movement and ability to pump, 
refine, and sell oil, reducing its revenue stream. In addition to 
physically impairing ISIL's ability to sell oil, the Treasury 
Department also prioritizes disrupting the market for oil derived from 
ISIL-controlled fields by targeting with financial sanctions anyone who 
trades in ISIL's stolen oil or refined product, among other efforts.   
[See page 31.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           November 13, 2014

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The Department of Defense has requested a broad 
waiver of existing laws in the request for the Iraq Train and Equip 
Program (ITEP) and I understand there is discussion about requesting a 
similar waiver for the Syria Train and Equip program. Why does the 
Department need such a waiver? What would the impacts be if you didn't 
get such waivers and you, for example, had to follow all the 
acquisition laws?
    Secretary Hagel. The Department requested a broad waiver authority 
that could be exercised by the Secretary of Defense in the draft Iraq 
Train and Equip Program (ITEP) provision for flexibility and to hedge 
against unforeseen circumstances. The waiver request was not intended 
to encompass the Department's responsibilities in the Leahy provision. 
Leahy vetting of Iraqi security force units intended to be trained is 
ongoing. The ITEP waivers that are in the recently enacted fiscal year 
2015 appropriations and authorizations acts are more narrow than 
requested, and authorize the Secretary of Defense to waive statutes 
relating to the acquisition of items and support services if he makes 
the specified determinations. This more specific waiver addresses our 
core concerns regarding flexible and timely acquisition to facilitate 
training and equipping the security forces of Iraq.
    The Syria Train and Equip program waiver as enacted authorizes the 
President to waive any provision of law if he makes the specified 
determinations, but provides that such waiver will not take effect 
until 30 days after congressional notification. This waiver will allow 
waiver of provisions that would otherwise prohibit financial or other 
assistance to the country of Syria (which would preclude assistance 
even to groups within Syria that are in conflict with the Government of 
Syria). In addition, provisions regarding acquisitions may be waived to 
enable contracting overseas or expedited contracting in order to 
facilitate the Syria train and equip effort. The possible effects of 
having to follow all acquisition laws are less flexibility and longer 
lead times, which could severely affect the Department's ability to 
meet emergent requirements.
    Mr. Langevin. Mr. Secretary, after U.S. airstrikes in Syria last 
week, Charles Lister, with the Brookings Doha Center in Qatar, was 
quoted in the Washington Post as saying ``the U.S. may now have lost 
Syria.'' While I do not yet share Mr. Lister's pessimism, I am very 
concerned that we may have ceded the space that really matters in this 
fight--the economic, political, and cultural battles that will 
ultimately be what decides this conflict. If there's one lesson that 
we've learned in the last 13 years, it's that we need to be realistic 
about what military force alone can and cannot do. With so many 
factions engaged in Syria, who have multiple competing objectives and 
who are unfriendly to U.S. interests or are terrorist organizations 
outright, what is the United States' strategy to win the information 
campaign, and do we have the institutional and organizational 
capability to manage that campaign?
    Secretary Hagel. [The information referred to is classified and 
retained in the committee files.]
    Mr. Langevin. Much reference has been made to the longer-term 
problems of U.S. and Western persons currently fighting with ISIL 
eventually returning home. These individuals may well have violent 
intentions and the training and capabilities to carry them out. Keeping 
tabs on these threats, in the numbers that we are talking about, is 
going to, at the very least, severely tax the abilities of many of our 
allies, if not overwhelm them, and pose a huge challenge here 
domestically. How can we act now to ameliorate the worst of this coming 
problem--for example, with intelligence or law enforcement cooperation?
    Secretary Hagel. The Department of Defense remains concerned with 
the threat posed by Westerners who travel to fight in Syria and Iraq 
and who may return home to carry out attacks. Constricting the flow of 
foreign fighters is an essential element of the U.S. Government's 
comprehensive strategy to degrade and defeat the Islamic State of Iraq 
and the Levant. The Department of Defense is acting through a 
coordinated, whole-of-government effort, engaging with international 
partners to highlight the threat, urging international partners to 
interdict the flow of foreign fighters, and disrupting those who 
facilitate the travel, related fundraising, or other support wherever 
possible. This involves sharing information and intelligence with our 
partners and encouraging them to collect and share information on 
suspected foreign fighters and facilitators as well. Other elements of 
the U.S. Government are working to build law enforcement and 
counterterrorism capacities to address this threat.
    The Department of Defense also recognizes certain common factors 
that contribute both to the challenges posed by homegrown violent 
extremists (HVEs) and to the phenomenon of westerners traveling to join 
extremist organizations abroad. As we recently saw in the case of the 
attack on the Canadian Parliament, an individual motivated to engage in 
violence, but not able to travel abroad to fight may become a domestic 
threat. Recognizing the history of HVE targeting of Department of 
Defense personnel and facilities within the homeland, the Department of 
Defense is working in close coordination with both the intelligence and 
law enforcement communities, including the Federal Bureau of 
Investigation, to protect Department of Defense personnel and 
facilities.
    Mr. Langevin. Mr. Secretary, in your (Senate-side) testimony in 
September you said ``we believe that Iraq's new Prime Minister, Haider 
al-Abadi, is committed to bringing all Iraqis together against ISIL.'' 
I'm confident we'd all agree that a military solution alone will not 
quell the rise of radical Islamic extremism in the Middle East. Could 
you expound upon why you have such confidence in Prime Minister al-
Abadi's intention and ability to be inclusive and more successful in 
efforts towards a political solution, particularly after Mr. Maliki, 
who once held our confidence, failed so miserably? Will the new 
government prove more capable at reconciling with alienated Sunni 
tribes?
    Secretary Hagel. Our confidence to date in Prime Minister Abadi is 
based on the early signals of his commitment to building an inclusive 
government--a commitment that distinguishes him from his predecessor. 
Prime Minister Abadi is facilitating cooperation among Kurds, Sunnis, 
and Shia. For example, he has named a Sunni Minister of Defense and 
directed outreach to Sunni tribes in an effort to incorporate tribal 
fighters into Iraq's security forces. The Iraqi government is also 
working on legislation to establish a National Guard that would 
incorporate Sunni tribesmen, devolve local control, and help build 
trust in the central government. At the same time, much work remains to 
be done and Prime Minister Abadi faces many competing pressures. 
Although the State Department leads on U.S. Government engagement with 
the tribes, the Department of Defense will continue to work through the 
Iraq government to support Sunni fighters and establishing an Iraq 
National Guard.
    Mr. Langevin. As you stated in your testimony, our comprehensive 
strategy to combat ISIL includes undercutting their flow of resources. 
Shutting down access to revenue, and closing the means by which funds 
flow to and from ISIL is a critical component of that strategy. To what 
extent were coordinated efforts made between the Department of Defense, 
the Department of State, the Department of the Treasury, the Department 
of Justice, and other intelligence and national security agencies to 
identify and restrict ISIL's access to revenue, restrict revenue flow, 
including through Hawala networks, and restrict access to international 
financial systems prior to August 7, 2014 (President's authorization of 
airstrikes); prior to June 2014 (ISIL's seizure of Mosul); prior to 
January 2014 (ISIL's seizure of Fallujah and Ramadi), and currently?
    Secretary Hagel. The Department of Defense coordinates routinely 
with other U.S. Government departments and agencies to identify and 
disrupt the finances of terrorist groups. Even prior to January 2014, 
the Department of Defense was reviewing threat assessments and 
supporting interagency planning efforts against ISIL. Between January 
and August 2014, these efforts evolved through increased interagency 
collaboration to identify non-kinetic disruption priorities. In May, 
U.S. Central Command issued a theater directive tasking components to 
pursue counter-threat finance activities with interagency counterparts. 
U.S. Special Operations Command compiled information on ISIL foreign 
fighter facilitators and proposed disruption options through military, 
law enforcement, and diplomatic levers of power. Defense Department 
elements also participated in interagency exploitation of documents 
seized from ISIL, including exploitation for financial-related 
information, the results of which were included in finished 
intelligence disseminated widely across the U.S. government. Currently, 
the Department of Defense is coordinating with interagency partners to 
degrade the financial health of ISIL, capitalizing on lessons learned 
during recent conflicts in Afghanistan and Iraq. Inter-agency partners 
coordinate directly on the military's targeting process against 
financial nodes, including pre-strike and post-strike planning and 
assessments. Additionally, the Department of Defense is reviewing data 
sets developed during Operation Iraqi Freedom to identify options to 
disrupt ISIL's illicit networks and financial facilitators. Defense 
components continue to examine ISIL financial resources and 
vulnerabilities in order to contribute to the whole-of-government 
campaign to degrade, dismantle, and ultimately defeat ISIL.
    Mr. Langevin. To the extent possible, please describe the policy 
concerning when, and to what degree, actions are taken with respect to 
terrorist financing, and what role the DOD plays in identifying 
networks and informing those decisions. What is the threshold for an 
organization to receive our attention with respect to terrorist 
financing action, and given the current environment, is that strategy 
and threshold being revisited? Finally, how effective have our economic 
pressures been to date, and how can our military leverage past progress 
in their role as advisors to ground forces?
    Secretary Hagel. The Department of Defense in coordination with the 
Department of State, the Department of Treasury, and other interagency 
stakeholders, assists in the determination process of a foreign 
terrorist organization (FTO) designation. These FTOs have engaged in 
terrorist activity and retain the capability or intent to conduct 
future terrorist acts, which threaten the security interests of the 
United States. Once a group has been identified as an FTO, the U.S. 
Government's counter-threat finance community will take action against 
it. Department of Defense counter threat finance policy states DOD will 
work with other U.S. Government departments and agencies and with 
partner nations to deny, disrupt, or defeat and degrade adversaries' 
ability to use global licit and illicit financial networks to 
negatively affect U.S. interests.
    Internal to the Department of Defense, the counter threat finance 
(CTF) mission is often driven by intelligence assessments on a 
terrorist group's attack plans, Geographic Combatant Commander 
priorities and resources, and also, requests for support from other 
U.S. Government agencies and international partners. The Department of 
Defense prioritizes its CTF efforts by those terrorist organizations 
and networks that pose the most significant threat to U.S. national 
security and Department of Defense personnel worldwide.
    The Department of Defense continues to disseminate within the 
Department of Defense and among the interagency the Department's 
lessons learned from supporting the Iraq Threat Finance Cell and 
Afghanistan Threat Finance Cell. Those cells yielded many successful 
investigations and operations, such as the takedown of the New Ansari 
Money Exchange in Afghanistan. Earlier this year, the Department of 
Defense initiated a multi-year effort to improve the integration of 
counter threat finance principles and programs into military doctrine, 
training, and education as another key component of the U.S. 
Government's counterterrorism strategy.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Given that the administration has already opened lines 
of communication with Iran, an enemy that holds ``Death to America'' 
parades and regularly expresses its desire to destroy our ally Israel, 
do you envision any scenario where you would work with Iran in the 
fight against ISIL? Is the administration currently in regular 
communication with the government of Iran regarding ISIL?
    Secretary Hagel. No, the United States is not in regular 
communication with the Government of Iran regarding the Islamic State 
in Iraq and the Levant (ISIL). We do not coordinate our activities with 
Iran.
    Mr. Shuster. In your estimation, how effective have coalition 
airstrikes been in countering ISIL on the ground? Given the nature of 
the threat and the current state of ISIL forces, by what metrics would 
you define ``success'' in the air campaign?
    Secretary Hagel. Airstrikes have been effective by disrupting 
ISIL's offensive, killing multiple senior ISIL leaders, and forcing 
them to change their tactics to avoid our strikes. We have achieved a 
95% accuracy rate on kinetic targeting. Success for the air campaign in 
Iraq, however, is to actively enable Iraqi and Kurdish Ground forces in 
making steady advances and retaking ground as recently demonstrated in 
Beiji. Air power is a critical component of our overall strategy, but 
it is complimentary to the main effort, Iraqis retaking, controlling, 
and governing their own soil. In Syria we continue to use airstrikes to 
successfully target ISIL leaders, disrupt their lines of communication, 
and means of finance by targeting sources of oil revenue.
    Mr. Shuster. How involved are you and the rest of DOD with the 
President's strategic decisionmaking in the campaign against ISIL? Have 
you been in regular consultation with the President during the 
formulation of this strategy, and is the President consulting military 
leaders as new developments arise on the ground? In what areas do you 
feel there needs to be better communication?
    Secretary Hagel. Both the civilian and military leadership of the 
Department actively participate in National Security Council meetings 
with the President. The Department has been represented at all 
interagency meetings about the counter-ISIL strategy convened by the 
National Security Council Staff.
    Mr. Shuster. Given that the administration has already opened lines 
of communication with Iran, an enemy that holds ``Death to America'' 
parades and regularly expresses its desire to destroy our ally Israel, 
do you envision any scenario where you would work with Iran in the 
fight against ISIL? Is the administration currently in regular 
communication with the government of Iran regarding ISIL?
    General Dempsey. We did not envision a scenario by which we would 
collaborate with Iran in our effort to defeat ISIL. While U.S. Forces 
are working with coalition partners to train, advise, and assist Iraqi 
and Peshmerga forces, they are not in communication, collaboration, or 
cooperation with Iranian forces which may be operating in proximate 
areas.
    Mr. Shuster. In your estimation, how effective have coalition 
airstrikes been in countering ISIL on the ground? Given the nature of 
the threat and the current state of ISIL forces, by what metrics would 
you define ``success'' in the air campaign?
    General Dempsey. Airstrikes have been effective by disrupting 
ISIL's offensive, killing multiple senior ISIL leaders, and forcing 
them to change their tactics to avoid our strikes. We have achieved a 
95% accuracy rate on kinetic targeting. Success for the air campaign in 
Iraq, however, is to actively enable Iraqi and Kurdish Ground forces in 
making steady advances and retaking ground as recently demonstrated in 
Beiji. Air power is a critical component of our overall strategy, but 
it is complimentary to the main effort, Iraqis retaking, controlling, 
and governing their own soil. In Syria we continue to use airstrikes to 
successfully target ISIL leaders, disrupt their lines of communication, 
and means of finance by targeting sources of oil revenue.
    Mr. Shuster. How involved are you and the rest of DOD with the 
President's strategic decisionmaking in the campaign against ISIL? Have 
you been in regular consultation with the President during the 
formulation of this strategy, and is the President consulting military 
leaders as new developments arise on the ground? In what areas do you 
feel there needs to be better communication?
    General Dempsey. The Secretary of Defense and I personally consult 
with the President regarding the campaign and the broader strategy. At 
each of these engagements, we have in depth strategic discussions where 
I offer my best military advice. From the very beginning, the 
Department of Defense participated in the formulation of the counter-
ISIL strategy. Communication between the White House and the Pentagon 
is open and frank, and the President remains advised of all new 
developments on the related to the campaign.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. We must prevent ISIL from gaining a safe haven from 
which to attack Americans, abroad or here at home. As you have said, a 
critical piece of our fight is to train and equip moderate Syrian 
opposition groups. However, in a recent Newsweek article, one former 
CIA vetting expert declared that the U.S. and CIA was ``completely out 
of its league.''
    Can you give us any indication as to how the vetting process is 
working? How can we make sure that we are not arming the enemy with 
training, aid and weapons that may be used against us?
    Secretary Hagel and General Dempsey. The Department of Defense will 
follow a layer vetting approach that uses long-standing and well 
developed U.S. military procedures and practices for vetting 
international forces. This approach applies processes from the U.S. 
Intelligence Community and interagency partners, while also soliciting 
sustained assistance from regional and international partners. Further, 
the Department of Defense will assess trainees and monitor recipients 
of assistance and training when they return to Syria. It will be a 
challenge to ensure certainty that the weapons and training will not be 
misused. The Department of Defense will discontinue support to any 
person, unit, or commander associated with credible evidence of end use 
violations.
    Mr. Barber. The Indiana Air National Guard's 122nd Fighter Wing has 
been deployed to the CENTCOM area of operation with a number of A-10s. 
It seems logical to me to use the A-10 in our fight against ISIL, 
especially since we are operating in contested territory mostly without 
the help of forward air controllers. The A-10 is one of the best 
airframes at a low altitude and can see the total battlefield much 
better than high-flying, high speed aircraft
    You have both testified to this committee that the Pentagon is 
preparing for a multi-year campaign against ISIL. Have you considered a 
role for the Warthog in the fight? Is there a reason we would not use 
one of our best tools, particularly one that is already deployed to the 
area?
    Secretary Hagel and General Dempsey. A-10s deployed to the U.S. 
Central Command area of operation are supporting the counter-ISIL air 
campaign.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. Can you explain the current vetting process for 
training and equipping opposition fighters and what mitigation measures 
are in place to ensure that those we train and equip are fighting in 
accordance with U.S. strategic objectives? Furthermore, who will be 
doing the training and who will be providing the long-term logistical 
support? For example: where and how will they get U.S. caliber 
ammunition for the U.S.-made rifles and machine guns we are supplying? 
Will all of these logistical requirements be the responsibility of 
American forces, or of contractors, our allies, etc.?
    Secretary Hagel and General Dempsey. The Department of Defense will 
follow a layered vetting approach that uses long-standing and well 
developed U.S. military procedures and practices for vetting 
international forces. This approach applies processes from the U.S. 
Intelligence Community and interagency partners. The approach also 
solicits sustained assistance from regional and international partners. 
Further, the Department of Defense will assess trainees and monitor 
recipients of assistance and training when they return to Syria. U.S. 
special operation forces and partner nation personnel will conduct the 
required training. Existing U.S. and partner nations will provide 
necessary supply and logistics, to include initial and periodic 
resupply.

                                  [all]
</pre></body></html>
